<html>
<title> - OVERSIGHT OF FIRST RESPONDER NETWORK AUTHORITY (FIRSTNET) AND EMERGENCY COMMUNICATIONS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 OVERSIGHT OF FIRST RESPONDER NETWORK 
                   AUTHORITY (FIRSTNET) AND EMERGENCY
                             COMMUNICATIONS

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2013

                               __________

                           Serial No. 113-16


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
80-378                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="187f6877587b6d6b6c707d7468367b777536">[email&#160;protected]</a>  

                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
PHIL GINGREY, Georgia                JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana                  Islands
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
CORY GARDNER, Colorado               BRUCE L. BRALEY, Iowa
MIKE POMPEO, Kansas                  PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
LEE TERRY, Nebraska                  MICHAEL F. DOYLE, Pennsylvania
MIKE ROGERS, Michigan                DORIS O. MATSUI, California
MARSHA BLACKBURN, Tennessee          BRUCE L. BRALEY, Iowa
STEVE SCALISE, Louisiana             PETER WELCH, Vermont
LEONARD LANCE, New Jersey            BEN RAY LUJAN, New Mexico
BRETT GUTHRIE, Kentucky              JOHN D. DINGELL, Michigan
CORY GARDNER, Colorado               FRANK PALLONE, Jr., New Jersey
MIKE POMPEO, Kansas                  BOBBY L. RUSH, Illinois
ADAM KINZINGER, Illinois             DIANA DeGETTE, Colorado
BILLY LONG, Missouri                 JIM MATHESON, Utah
RENEE L. ELLMERS, North Carolina     G.K. BUTTERFIELD, North Carolina
JOE BARTON, Texas                    HENRY A. WAXMAN, California, ex 
FRED UPTON, Michigan, ex officio         officio
  


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the state of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     3
Hon. Anna G. Eshoo, a Representative in Congress from the state 
  of California, opening statement...............................     4
Hon. Fred Upton, a Representative in Congress from the state of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     6
Hon. Henry A. Waxman, a Representative in Congress from the state 
  of California, opening statement...............................     7

                               Witnesses

Samuel Ginn, Chairman, First Responder Network Authority.........     8
    Prepared statement...........................................    11
    Answers to submitted questions...............................   215
Christopher McIntosh, statewide Interoperability Coordinator, 
  Virginia.......................................................    38
    Prepared statement...........................................    40
    Answers to submitted questions...............................   228
Ray Lehr, Director, statewide Communications Interoperability 
  Coordinator, Maryland..........................................    48
    Prepared statement...........................................    50
    Answers to submitted questions...............................   231
James A. Barnett, Jr., Rear Admiral U.S. Navy (Ret.), Former 
  Chief, Public Safety and Homeland Security Bureau, Federal 
  Communications Commission, Partner and Co-Chair, 
  Telecommunications Group, Venable LLP..........................    55
    Prepared statement...........................................    57
    Answers to submitted questions...............................   232
Declan Ganley, Chairman and CEO, Rivada Networks.................   118
    Prepared statement...........................................   120
David Turetsky, Chief, Public Safety and Homeland Security 
  Bureau, Federal Communications Commission......................   152
    Prepared statement...........................................   155
    Answers to submitted questions...............................   240
Diane Kniowski, President and General Manager, WOOD/WOTV/WXSP, 
  Lin Media......................................................   166
    Prepared statement...........................................   168
Christopher Guttman-McCabe, Vice President, Regulatory Affairs, 
  CTIA--The Wireless Association.................................   183
    Prepared statement...........................................   185
Trey Forgety, Director, Government Affairs, National Emergency 
  Number Association.............................................   189
    Prepared statement...........................................   191

                           Submitted Material

Letter of March 13, 2013, from the state of Ohio's Chief 
  Information Officer to Mr. Latta...............................   207
Letter of March 13. 2013, from the National Governors Association 
  to the Subcommittee, submitted by Ms. Eshoo....................   208
Letter of March 13. 2013, from Testron Systems to the 
  Subcommittee, submitted by Mr. Walden..........................   210


OVERSIGHT OF FIRST RESPONDER NETWORK AUTHORITY (FIRSTNET) AND EMERGENCY 
                             COMMUNICATIONS

                              ----------                              


                        THURSDAY, MARCH 14, 2013

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:32 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Greg 
Walden (chairman of the subcommittee) presiding.
    Present: Representatives Walden, Latta, Terry, Blackburn, 
Scalise, Lance, Guthrie, Kinzinger, Long, Ellmers, Barton, 
Upton (ex officio), Eshoo, Matsui, Braley, Welch, Dingell, 
Pallone and Waxman (ex officio).
    Staff present: Ray Baum, Senior Policy Advisor/Director of 
Coalitions; Sean Bonyun, Communications Director; Matt Bravo, 
Professional Staff Member; Andy Duberstein, Deputy Press 
Secretary; Neil Fried, Chief Counsel, Communications and 
Technology; Debbee Hancock, Press Secretary; Nick Magallanes, 
Policy Coordinator, Commerce, Manufacturing and Trade; David 
Redl, Counsel, Telecom; Charlotte Savercool, Executive 
Assistant, Legislative Clerk; Lyn Walker, Coordinator, Admin/
Human Services; Tom Wilbur, Digital Media Advisor; Roger 
Sherman, Democratic Chief Counsel; Shawn Chang, Democratic 
Senior Counsel; Patrick Donovan, FCC Detailee; and Kara van 
Stralen, Democratic Special Assistant.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I would like to call to order the Subcommittee 
on Communications and Technology for our hearing on oversight 
of FirstNet and emergency communications.
    Good morning, everyone, and welcome, especially to our 
witnesses on both of our panels, as well as our colleagues and 
guests.
    In last year's Middle Class Tax Relief and Job Creation 
Act, Congress created the First Responder Network Authority. 
FirstNet is an independent entity within the NTIA tasked with 
implementing a nationwide interoperable public safety broadband 
network. That is no small task. On the first of today's two 
panels, we will hear from FirstNet, states, a former chief of 
the FCC Public Safety Bureau, and private sector 
representatives on what progress is being made and where we 
should go from here.
    The legislation as adopted was not my preferred approach 
for many of the reasons expressed in today's prepared 
testimony. I favored construction from the bottom up, not the 
top down, with certain minimum interoperability requirements 
and commercial providers running the network in partnership 
with the states. That approach is by no means guaranteed by the 
legislation as finally passed. But we must do our best to 
implement that model within the confines of the law if this 
endeavor is going to succeed. We owe it to the state and local 
first responders that risk their lives for ours, the men and 
women who are the literal boots on the ground. And we owe it to 
the taxpayers, who funded it up front with up to $7 billion in 
federal revenue, and who will fund it over the long haul 
through their state and local taxes.
    I am a firm believer that the work of Congress begins, not 
ends, when a bill is enacted into law. Even at this early 
stage, a recent forum of prospective participants highlighted 
concerns about how FirstNet is being administered and how the 
public safety broadband network will be realized. I look 
forward to exploring some of those concerns today. For example, 
will FirstNet meet the needs of both rural and urban parts of 
the country? Will it bring the needed innovation and efficiency 
of the commercial sector to public safety communications? Will 
FirstNet conduct open and transparent proceedings to ensure all 
potential stakeholders are heard?
    As today's witnesses can attest, funding FirstNet will also 
be an essential element of making the network a reality. I was 
encouraged to hear Senator Rockefeller say at this week's FCC 
oversight hearing that the agency should conduct the incentive 
auctions in a way that maximizes participation and revenue. I 
agree that this will best ensure our public safety objectives 
are met.
    We have learned time and again that in times of natural and 
national disaster, communication among our first responders is 
key. Ensuring communication lines are open to the public is 
equally important. With our second panel, we will examine the 
Emergency Alert System, Wireless Emergency Alerts, and 911 
service.
    As former broadcasters, my wife and I fondly recall running 
our required weekly tests of the broadcast emergency alert 
system. However, despite its more than 60 years of existence in 
one form or another, the EAS was only recently tested on a 
national level. While more than 90 percent of the stations 
properly ran the test message, technical challenges prevented 
stations in my home state of Oregon and elsewhere from 
receiving the message. This could have been catastrophic in a 
real emergency and it must be resolved in short order.
    Broadcast alerts are a critical part of our emergency 
infrastructure, but emergency systems, like all communications 
media, have changed significantly over the last 20 years. In 
1993 there were only 13 million cell phone subscribers in 
America. That was less than 5 percent of the U.S. population. 
Today, the broadcast emergency alert system is part of the 
Integrated Public Alert and Warning System, IPAWS, that 
incorporates broadcast, cable and satellite video programming 
distributors as well as more granularly targeted alerts to 
wireless devices. So I look forward to our witnesses giving us 
a better picture of the successes and challenges with the 
alerting systems.
    Finally, while getting timely emergency information to the 
public is critical to emergency response, getting information 
from the public is just as crucial. Sadly, emergencies occur 
every day in our homes, in our offices, in our cars and on the 
streets. This is the world of our 911 call centers. While no 
less devastating to those involved, these emergencies are often 
of a small scale, affecting just a few people. Every now and 
then, however, they occur on a large scale, taxing the 
resources of both the call centers and commercial providers. We 
cannot design the 911 system to cover every contingency but we 
should learn from our experiences to improve it whenever and 
however we can. We also need to discuss how we might 
incorporate more advanced technologies, which is why this 
committee incorporated Mr. Shimkus's and Ranking Member Eshoo's 
NextGen 911 Advancement Act in the Middle Class Tax Relief and 
Job Creation Act. I look forward to hearing how this national 
asset is adapting to serve our needs in a broadband world.
    I would yield the last bit of my time to the vice chair of 
the committee, Mr. Latta.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    In last year's Middle Class Tax Relief and Job Creation 
Act, Congress created the First Responder Network Authority. 
FirstNet is an independent entity within the NTIA tasked with 
implementing a nationwide interoperable public safety broadband 
network. That's no small task. On the first of today's two 
panels, we will hear from FirstNet, states, a former chief of 
the FCC Public Safety Bureau, and private sector 
representatives on what progress is being made and where we 
should go from here.
    The legislation as adopted was not my preferred approach 
for many of the reasons expressed in today's prepared 
testimony. I favored construction from the bottom up, not the 
top down, with certain minimum interoperability requirements 
and commercial providers running the network in partnership 
with the states. That approach is by no means guaranteed by the 
legislation as finally passed. But we must do our best to 
implement that model within the confines of the law if this 
endeavor is going to succeed. We owe it to the state and local 
first responders that risk their lives for ours, the men and 
women who are the literal boots on the ground. And we owe it to 
the taxpayers, who funded it up front with up to $7 billion in 
federal revenue, and who will fund it over the long-haul 
through their state and local taxes.
    I am a firm believer that the work of Congress begins, not 
ends, when a bill is enacted into law. Even at this early 
stage, a recent forum of prospective participants highlighted 
concerns about how FirstNet is being administered and how the 
public safety broadband network will be realized. I look 
forward to exploring some of those concerns today. For example, 
will FirstNet meet the needs of both rural and urban parts of 
the country? Will it bring the needed innovation and efficiency 
of the commercial sector to public safety communications? Will 
FirstNet conduct open and transparent proceedings to ensure all 
potential stakeholders are heard?
    As today's witnesses can attest, funding FirstNet will also 
be an essential element of making the network a reality. I was 
encouraged to hear Senator Rockefeller say at this week's FCC 
oversight hearing that the agency should conduct the incentive 
auctions in a way that maximizes participation and revenue. I 
agree that this will best ensure our public safety objectives 
are met.
    We have learned time and again that in times of natural and 
national disaster communication among our first responders is 
key. Ensuring communication lines are open to the public is 
equally important. With our second panel, we will examine the 
Emergency Alert System, Wireless Emergency Alerts, and 9-1-1 
service.
    As former broadcasters, my wife Mylene and I fondly recall 
running our required weekly tests of the broadcast emergency 
alert system. However, despite its more than 60 years of 
existence in one form or another, the EAS was only recently 
tested on a national level. While more than 90 percent of the 
stations properly ran the test message, technical challenges 
prevented stations in my home state of Oregon and elsewhere 
from receiving the message. This could have been catastrophic 
in a real emergency and must be resolved in short order.
    Broadcast alerts are a critical part of our emergency 
infrastructure, but emergency systems--like all communications 
media--have changed significantly over the last 20 years. In 
1993 there were only 13 million cell phone subscribers in 
America. That was less than 5 percent of the population. Today, 
the broadcast emergency alert system is part of the Integrated 
Public Alert and Warning System-IPAWS- that incorporates 
broadcast, cable and satellite video programming distributors 
as well as more granularly targeted alerts to wireless devices. 
I look forward to our witnesses giving us a better picture of 
the successes and challenges with the alerting systems.
    Finally, while getting timely emergency information to the 
public is critical to emergency response, getting information 
from the public is just as crucial. Sadly, emergencies occur 
every day in our homes, in our offices, in our cars, and on the 
streets. This is the world of our 9-1-1 call centers. While no 
less devastating to those involved, these emergencies are often 
of a small scale, affecting just a few people. Every now and 
then, however, they occur on a large scale, taxing the 
resources of both the call centers and commercial providers. We 
cannot design the 9-1-1 system to cover every contingency but 
we should learn from our experiences to improve it where we 
can. We also need to discuss how we might incorporate more 
advanced technologies, which is why this committee incorporated 
Mr. Shimkus' and Ranking Member Eshoo's Next Generation 9-1-1 
Advancement Act in the Middle Class Tax Relief and Job Creation 
Act. I look forward to hearing how this national asset is 
adapting to serve our needs in a broadband world.

                                #  #  #

    Mr. Latta. I appreciate the chairman for yielding and thank 
him very much and I also appreciate you holding the hearing 
today, and I thank our distinguished panel of witnesses for 
testifying today.
    Public safety and emergency communications are an extremely 
important topic, one that affects every single American. That 
is why it is imperative that FirstNet is successful. A 
nationwide interoperable public safety network is a massive 
undertaking and it is critically important that the 
communication system is done right by FirstNet for the sake of 
our economy and the safety of all Americans.
    I am concerned that the role of the states is being 
overlooked. I would like to submit for the record, Mr. 
Chairman, a letter from the state of Ohio's Chief Information 
Officer on concerns regarding FirstNet's funding, communication 
planning and representation.
    Mr. Walden. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Latta. Thank you, Mr. Chairman.
    I look forward to the hearing and the testimony from our 
witnesses and I look forward to a thoughtful and constructive 
discussion.
    With that, Mr. Chairman, I yield back.
    Mr. Walden. The gentleman yields back. The Chair recognizes 
the ranking member from California, Ms. Eshoo.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, and good morning to 
you, and thank you for holding this very important hearing 
today.
    Mr. Chairman, through our bipartisan work in the 112th 
Congress, we laid the groundwork for the first-ever 
interoperable nationwide public safety broadband network. Now, 
more than 11 years after our Nation was attacked, it is the 
First Responder Network Authority, or FirstNet, who has been 
tasked with the build-out and maintenance of a network that 
will transform the way our first responders communicate.
    To ensure that FirstNet remains on track, leverages the 
expertise of the communications sector, and does not repeat the 
mistakes that have plagued public safety communications for 
decades, I expect this will be the first of many oversight 
hearings because I think that is going to be important for us 
to do so, to keep everything on track, and as we do, all of the 
stakeholders will know how serious we are about.
    For today's hearing, I would like to offer several 
observations that I believe will guide the success of FirstNet 
and the transition to Next Generation 9-1-1. First, consistent 
with statute, FirstNet must ensure equipment used on the 
network is built to open, non-proprietary, commercially 
available standards. A $5,000 radio is simply unacceptable, 
particularly when far superior, off-the-shelf technology can be 
purchased for a fraction of the price.
    Second, FirstNet should leverage the expertise and 
innovative thinking found across Silicon Valley, my 
distinguished Congressional district. A modern, IP-based 
network in which first responders rely on Internet-enabled 
devices creates new opportunities for both device and 
application makers. Covia Labs, a Mountain View-based startup, 
is one example of the innovative thinking already underway.
    Third, the transition to Next Generation 9-1-1 will require 
the continued support of Congress, the FCC, NHTSA and NTIA. 
Last month, the FCC issued a detailed roadmap to Congress on 
how best to advance and deploy NG9-1-1 across our country. I am 
encouraged by the progress made to date and I believe our 
success will ensure that local 9-1-1 call centers can quickly 
and accurately deliver emergency information to our first 
responders.
    So I want to thank all of our witnesses today for being 
here and for your commitment to advancing our Nation's public 
safety communications.
    And with that, Mr. Chairman, I would like to ask unanimous 
consent that a letter from the National Governors Association 
relative to our hearing today be placed in the record.
    Mr. Walden. Without objection.
    [The information appears at the conclusion of the hearing.]
    Ms. Eshoo. Thank you. I yield back. Does anyone want to 
use--Congresswoman Matsui, I would be happy to yield time to 
you.
    Ms. Matsui. I thank the ranking member for yielding me 
time.
    Let me start by saying that FirstNet is here to stay and it 
is part of our responsibility to ensure it is efficient and 
well implemented. If not, we jeopardize the entire network and 
it is as simple as that.
    I believe transparent governance is paramount and critical 
to ensure America's first responders have an efficient and 
effective interoperable network. I also believe states should 
and will play a critical role during this process. While not 
perfect, I believe the law put in place a strong governance 
framework with a focus on public-private partnerships to ensure 
we achieve our primary goal of providing a nationwide 
interoperable broadband network for our Nation's first 
responders.
    Throughout my career, I have sat on a number of governance 
boards, and I truly understand the importance of their roles in 
providing clear leadership. Simply put, good governance is a 
linchpin of the public safety network that would determine 
success or failure. It must be done right from the outset.
    Thank you, and I want to thank the witnesses for being 
here, and I yield back my time to the ranking member to do with 
as she pleases.
    Would anyone like to use 35 seconds? I would be happy to 
yield.
    I yield back.
    Mr. Walden. I now recognize the chairman of the full 
committee, the gentleman from Michigan, Mr. Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    Today's hearing is going to examine how we communicate in 
times of emergency. The first panel is going to focus on 
implementing provisions in our spectrum legislation to create a 
nationwide interoperable public safety network. That law could 
raise as much as $7 billion for first responders, help build 
out the communications system, and still clear as much as 120 
megahertz of spectrum to meet growing demand for wireless 
broadband. But to do so, the FCC must refrain from excluding 
potential bidders and maximize the amount of spectrum that it 
auctions and the revenue it raises. We also have to ensure that 
state and local governments play an integral role in designing 
that network.
    The second panel is going to focus on how we communicate 
with our citizens and they with us when danger strikes. The 
emergency alert and 9-1-1 systems are pivotal links when the 
unfortunate happens, and I want to particularly welcome today 
my friend, Diane Kniowski, President and General Manager of 
WOOD TV, WOTV, and WXSP. These stations do an excellent job of 
keeping our communities in southwest Michigan informed both in 
times of emergency and during our day-to-day lives.
    I would yield to other members wishing time. Seeing none, I 
yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today's hearing will examine how we communicate in times of 
emergency. The first panel will focus on implementing 
provisions in our spectrum legislation to create a nationwide, 
interoperable public safety network. The law could raise as 
much as $7 billion for first responders, help build out the 
communications system, and still clear as much as 120 megahertz 
of spectrum to meet growing demand for wireless broadband. To 
do so, however, the FCC must refrain from excluding potential 
bidders and maximize the amount of spectrum it auctions and the 
revenue it raises. We must also ensure that state and local 
governments play an integral role in designing this network.
    The second panel will focus on how we communicate with our 
citizens and they with us when danger strikes. The emergency 
alert and 9-1-1 systems are pivotal links when the unfortunate 
happens. I want to welcome today my friend Diane Kniowski, 
President and General Manager of WOOD TV, WOTV, and WXSP. These 
stations do a tremendous job of keeping our communities in 
southwest Michigan informed both in times of emergency and 
during our day-to-day lives.

                                #  #  #

    Mr. Walden. The gentleman yields back the balance of his 
time. We now recognize the former chairman of the full 
committee, the gentleman from California, Mr. Waxman.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman, for holding 
this hearing, and welcome to all of our witnesses and 
especially Sam Ginn, Chairman of the FirstNet Board. Mr. Ginn 
has offered to spearhead a historic undertaking that is vital 
to our Nation. We appreciate his service and the service of all 
the FirstNet board members.
    Last year, Congress enacted the Public Safety and Spectrum 
Act, delivering on one of the last remaining recommendations 
from the 9/11 Commission to create a nationwide interoperable 
public safety broadband network for first responders. The Act 
was the result of bicameral, bipartisan negotiations that 
produced a strong and innovative law. Our job now is to work 
together to make the legislation a success.
    To deliver on the promise of the law, we will need the 
cooperation of partners in industry and public safety. The Act 
was designed to take advantage of existing commercial networks 
and economies of scale. Given the magnitude of this project, it 
is critical that FirstNet and its partners operate efficiently 
and innovate aggressively.
    There will be a substantial taxpayer investment in 
FirstNet. The law provides FirstNet with valuable spectrum and 
$7 billion to build the new public safety network. We need to 
ensure that these public funds go as far as possible, and I am 
pleased that most stakeholders seem to recognize this and are 
committed to this shared goal.
    We have profound respect and appreciation for our first 
responders, and it is their dedication and the searing 
experience of 9/11 that led to the creation of FirstNet. Now it 
is time for public safety to step up again and help make this 
promise a reality. This will require all parties to put aside 
old turf battles and collaborate in a way that puts the success 
of the national network first.
    On the second panel, we will learn more about the FCC's 
recent activities to investigate the reliability and resiliency 
of our Nation's communications networks. This is a critical 
issue. Climate change is supercharging storms. In the aftermath 
of Superstorm Sandy, power outages and floods disrupted many 
types of communications services, including wireless, 
television, telephone and Internet services. It is absolutely 
critical that we explore the impact of weather emergencies on 
communications reliability.
    It is fitting that we are discussing communications 
reliability at the same hearing during which we consider the 
construction of a public-safety-grade broadband network for 
first responders. One question I hope we can answer is whether 
``public safety grade'' will become the new normal in a world 
in which natural disasters are more frequent.
    Again, I want to thank all of our witnesses for appearing 
today and for your commitment to advancing our Nation's public 
safety communications. I thank the chairman for scheduling this 
important hearing. I look forward to the testimony. There is 
another hearing going on at the same time, so I will be back 
and forth. It in no way indicates a lack of interest on my 
part. If I don't get to hear your testimony, I will certainly 
get a chance to review it, and I appreciate everybody's 
participation in this hearing. Yield back my time.
    Mr. Walden. The gentleman yields back the balance of his 
time.
    And now we are ready to hear from our witnesses. We welcome 
you all today. On panel one, to discuss the FirstNet issues and 
the interoperable public safety broadband network build-out, we 
have the Hon. Sam Ginn, who is Chairman of the First Responder 
Network Authority; Chris McIntosh, statewide Interoperability 
Coordinator for Virginia; Ray Lehr, Director of statewide 
Communications Interoperability Coordinator from Maryland; 
Admiral James A. Barnett, Jr., Rear Admiral, United states 
Navy, retired, former Chief, Public Safety and Homeland 
Security Bureau, Federal Communications Commission, Partner and 
Co-Chair, Telecommunications Group, Venable LLP--that takes 20 
seconds of your time; Declan Ganley, Chairman and CEO, Rivada 
Networks. We thank all of you for being here and giving us the 
great value of your testimony and counsel.
    Mr. Ginn, we are going to open with you. It is good to see 
you again, and I look forward to your testimony, and thank you. 
Go ahead.

 STATEMENTS OF SAMUEL GINN, CHAIRMAN, FIRST RESPONDER NETWORK 
  AUTHORITY; CHRISTOPHER MCINTOSH, STATEWIDE INTEROPERABILITY 
     COORDINATOR, VIRGINIA; RAY LEHR, DIRECTOR, STATEWIDE 
  COMMUNICATIONS INTEROPERABILITY COORDINATOR, MARYLAND; ADM. 
 JAMES A. BARNETT, JR., REAR ADMIRAL U.S. NAVY (RET.), FORMER 
  CHIEF, PUBLIC SAFETY AND HOMELAND SECURITY BUREAU, FEDERAL 
       COMMUNICATIONS COMMISSION, PARTNER AND CO-CHAIR, 
   TELECOMMUNICATIONS GROUP, VENABLE LLP; AND DECLAN GANLEY, 
               CHAIRMAN AND CEO, RIVADA NETWORKS

                    STATEMENT OF SAMUEL GINN

    Mr. Ginn. Thank you, Chairman Walden and Ranking Member 
Eshoo. Thank you for the invitation, and I would like to thank 
the committee for the opportunity to give you a status of where 
we are at FirstNet. But first I think we have all watched 9/11, 
Katrina, and more recently Sandy, and even if you have sat in a 
local operation dispatch center for the police department, you 
understand how important this legislation has been, and just as 
a citizen of this country, I want to thank you, and I want to 
thank Congress for this law because it was an incredible piece 
of legislation and I think if we can execute on our end, we 
will reduce cost, we will improve operations and we will save 
lives. So as Chairman of FirstNet, I thank you.
    Now, these are the early days of FirstNet, and I think the 
question I would ask myself is, how are you doing, and I will 
try to answer that question in just a few minutes. I think the 
first thing you have to understand is, this is probably the 
largest telecom project in our history. We will be building the 
equivalent of a commercial network over the next few years with 
very interesting requirements. We expect to cover every square 
meter of land. We expect to penetrate Manhattan skyscrapers. We 
expect to implement a new technology, LTE. We expect to 
engineer a network that is multi-carrier based, and we expect 
to put in this network public sector features that help them do 
their job better. So I think the point of saying this is, this 
is going to be a massive, complex and challenging mission, and 
I just think we have to understand that as we move into 
implementation.
    The second thing that I think is important is what kind of 
leadership is gathering around this mission, and I would like 
to talk a bit about the board of directors, and first of all, 
technical competence is so important. I mean, when you get 
right down to it, this is a massive technical effort, and we 
have recruited board members with technical wireless 
backgrounds. They have engineered wireless systems all across 
the United states. They have engineered systems in Germany, 
Italy, Spain, Portugal, Sweden, Japan, India and South Korea. 
So I think you could be assured that what we have recruited on 
the board is a group of people who know how to engineer 
wireless networks, and I am confident myself that we have that 
technical competence.
    The other thing I think is important about the board is the 
public safety representation. We have members on our board from 
police, fire, sheriff and EMS, and not only from those 
institutions but these people happen to be leaders in their 
disciplines. They are quite active and they make wonderful 
contributions. Also on the board, we have members with 
backgrounds in state government and cities, many years of 
experience. They know the issues that those entities face on a 
day-to-day basis. And I think the most important thing that I 
can report to you today is this board is coming together. It is 
beginning to operate as a team, and I think that is a first, 
wonderful implication of getting this project off on the right 
foot.
    The second thing that I think needs to be said is, this is 
a startup. We are starting from a blank sheet of paper. We have 
no milestones to measure our performance. We have no employees 
to start with. We have no budget. We have no financial 
controls. We have no audit function. We have no history and no 
culture. And so institutions need to put all of these things in 
place, and we have been busy for the last few months putting 
these requirements in place. And I would say that things are 
coming together. Next week we will announce the appointment of 
a general manager, and I would guess that the senior manager of 
the team will be in place very quickly, so the report is, we 
are progressing to a more normal operation, which is, we can 
manage and measure.
    Now, the other thing is that the world doesn't stop even 
though you have only a board and no employees, and so we have 
had to deal with a number of emerging issues. We have obviously 
had to deal with the conceptualization of the network itself, 
and let me just be a little more specific here. We are going to 
implement an LTE system. The LTE system is a commercial system, 
and it has to be modified for public safety requirements. We 
are in the process of doing that. If you don't do that, if you 
don't embed public safety needs into the standards, the 
standards get published and manufacturers don't deliver the 
kind of capabilities that public safety needs. So we have been 
heavily involved in the standards process making sure that 
public safety issues are addressed. We have been 
conceptualizing multi-carrier networks, and there are not many 
of these world, and there is a lot of work that needs to be 
done in terms of proof of concept and do multiple-carrier 
networks really work and how do they work best. So we have 
taken directors who have taken full-time jobs, one on 
technology, to work on these issues. We have a full-time 
director of outreach because you discover very quickly that the 
public safety community and other communities, for that matter, 
have points of view and they demand to be understood, and we 
understand that because customer expectations are clearly the 
way to solve these issues.
    Mr. Chairman, I will stop there and be willing to take your 
questions.
    [The prepared statement of Mr. Ginn follows:]

    [GRAPHIC] [TIFF OMITTED] T0378.001
    
    [GRAPHIC] [TIFF OMITTED] T0378.002
    
    [GRAPHIC] [TIFF OMITTED] T0378.003
    
    [GRAPHIC] [TIFF OMITTED] T0378.004
    
    [GRAPHIC] [TIFF OMITTED] T0378.005
    
    [GRAPHIC] [TIFF OMITTED] T0378.006
    
    [GRAPHIC] [TIFF OMITTED] T0378.007
    
    [GRAPHIC] [TIFF OMITTED] T0378.008
    
    [GRAPHIC] [TIFF OMITTED] T0378.009
    
    [GRAPHIC] [TIFF OMITTED] T0378.010
    
    [GRAPHIC] [TIFF OMITTED] T0378.011
    
    [GRAPHIC] [TIFF OMITTED] T0378.012
    
    [GRAPHIC] [TIFF OMITTED] T0378.013
    
    [GRAPHIC] [TIFF OMITTED] T0378.096
    
    [GRAPHIC] [TIFF OMITTED] T0378.097
    
    [GRAPHIC] [TIFF OMITTED] T0378.098
    
    [GRAPHIC] [TIFF OMITTED] T0378.099
    
    [GRAPHIC] [TIFF OMITTED] T0378.100
    
    [GRAPHIC] [TIFF OMITTED] T0378.101
    
    [GRAPHIC] [TIFF OMITTED] T0378.102
    
    [GRAPHIC] [TIFF OMITTED] T0378.103
    
    [GRAPHIC] [TIFF OMITTED] T0378.104
    
    [GRAPHIC] [TIFF OMITTED] T0378.105
    
    [GRAPHIC] [TIFF OMITTED] T0378.106
    
    [GRAPHIC] [TIFF OMITTED] T0378.107
    
    [GRAPHIC] [TIFF OMITTED] T0378.108
    
    [GRAPHIC] [TIFF OMITTED] T0378.109
    
    Mr. Walden. Thank you, sir.
    We will now turn to Mr. McIntosh. We are pleased that you 
are here to give us from an on-ground perspective as the 
statewide Interoperability Coordinator for Virginia, and please 
pull that mike up close and you have got your 5 minutes. Thank 
you.

               STATEMENT OF CHRISTOPHER MCINTOSH

    Mr. McIntosh. Thank you, Chairman Walden, Ranking Member 
Eshoo, distinguished members of the committee.
    Communications is the one constant that forms the 
foundation for all other public safety disciplines. It is the 
bedrock of every response plan, the core of every procedure. In 
the past 11 years, billions of dollars have been spent across 
the Nation on communications programs. New radio systems have 
been fielded, interoperability has been greatly improved, and 
the ability of our first responders to communicate is better 
than ever.
    Unfortunately, funding levels have fallen precipitously. 
Virginia has seen consecutive 50 percent cuts in federally 
funded state homeland security grant programs, and 
historically, almost 30 percent of that funding has gone to 
support and maintain communications. In 2011 alone, the 
Commonwealth received $43 million in requests from localities 
for communications grant funding and was only able to award $2 
million. Virginia has also recently seen the loss of funding of 
two Urban Area Security Initiatives resulting in the reduction 
of tens of millions of dollars in annual funding. Much of that 
went to communications program as well.
    We stand on the verge of a revolution in emergency 
communications capabilities. However, traditional land mobile 
radio systems are beginning to become integrated with Voice 
over Internet Protocol technologies. By fusing voice 
communications with Internet technologies, new possibilities 
are becoming a reality. Virginia operates one of the largest 
public safety Voice over IP networks in the Nation. Soon any 
laptop, tablet or smartphone in the hands of a Virginia public 
safety professional will become a radio capable of 
communicating with any PSAP in the state or any responder on a 
radio connected to it and fusing that with crisis management 
video and geospatial and system-based information to allow 
previously unheard-of levels of situational awareness.
    All of these capabilities rely on reliable connectivity, 
and public safety broadband offers a solution that addresses 
many of the connectivity issues faced by public safety. Now 
public safety professionals will have the opportunity to have 
unfettered access to wireless communications in order to 
improve their ability to respond to incidents safely and 
effectively. The challenge lies in making all this a reality in 
the current fiscal environment.
    Public safety communications budgets, like other budgets, 
are heavily encumbered with existing core funding needs and 
have little flexibility to fund new programs or new 
capabilities. Public safety broadband will not replace existing 
or planned land mobile radio systems in the near future. LMR 
has proven its reliability, survivability and usability many 
times over. Cellular technologies, on the other hand, have 
proven to be susceptible to widespread failure during natural 
disasters. Cellular infrastructure density results in a 
dependence on reliable power supplies and redundant backhaul 
connectivity that is a major vulnerability. Even after 
mitigations to these issues are designed into the network, it 
will be some time before we can adequately evaluate their 
effectiveness. The cost of public safety broadband will be in 
addition to current land mobile radio costs currently paid by 
state and local governments. The time horizon for replacing LMR 
cost with public safety broadband cannot be determined.
    The FirstNet Board has been on the record to state that the 
network will cover every square meter of the United states. 
They must do this with a network that greatly exceeds the 
design specifications and redundancies of commercial networks 
but with a fraction of the resources the private sector has 
currently expended in a network that only covers two-thirds of 
the country. The states are understandably nervous that the 
combination of increased costs and insufficient funding will 
result in the uncovered costs being passed on to state and 
local governments, further diminishing funding for other core 
first responder necessities. In light of this, states need the 
ability to define the level of partnership that they will 
engage in with FirstNet. states should be allowed to negotiate 
partnerships on their own with the private sector that are 
designed to generate revenue that can be applied to the 
network. Many of these potential partners are local or 
intrastate in nature, making the state-local team the 
appropriate governing structure for this arrangement as opposed 
to FirstNet. FirstNet cannot be expected to understand each 
state's unique circumstances and needs. It is through a 
partnership between states and localities and the FirstNet 
Board that this program will be successful.
    In addition, adding a current state official to the 
FirstNet Board would be very helpful to this endeavor. The Act 
requires that each state or territory certify that they have 
designated a single officer or governmental body to coordinate, 
serving as a portal through which FirstNet will conduct its 
consultation with the state. Many states, including Virginia, 
have established this communications channel and are waiting 
for FirstNet to reciprocate. In the inaugural FirstNet Board 
meeting, a notional architecture for the network was presented, 
and we are told that a more refined version will be presented 
in April. This network is being designed before the 
consultation mentioned before has been done.
    Public safety broadband is a far-reaching and mission-
critical program. To succeed, it requires direct communication 
and coordination between FirstNet and the states. This will 
ensure that requirements are captured and adequate mechanisms 
are developed that permit the network as operations and 
maintenance and the planning, training and exercising and 
support are adequately and reliably funded. Establishing a 
vehicle for the designee of each state or territory to work 
directly with FirstNet within the FirstNet governing structure 
would vastly improve the collaboration between FirstNet and the 
states and territories. The partnership between the states and 
FirstNet must be direct, open, transparent and ongoing.
    With that, I stand by for your questions.
    [The prepared statement of Mr. McIntosh follows:]

    [GRAPHIC] [TIFF OMITTED] T0378.014
    
    [GRAPHIC] [TIFF OMITTED] T0378.015
    
    [GRAPHIC] [TIFF OMITTED] T0378.016
    
    [GRAPHIC] [TIFF OMITTED] T0378.017
    
    [GRAPHIC] [TIFF OMITTED] T0378.018
    
    [GRAPHIC] [TIFF OMITTED] T0378.019
    
    [GRAPHIC] [TIFF OMITTED] T0378.020
    
    [GRAPHIC] [TIFF OMITTED] T0378.021
    
    Mr. Walden. Thank you very much. I appreciate your 
testimony.
    Now we will hear from Ray Lehr, who is the Director of 
statewide Communications Interoperability Coordinator for the 
state of Maryland. We welcome you today and look forward to 
your comments, sir.

                     STATEMENT OF RAY LEHR

    Mr. Lehr. Thank you, Chairman Walden, Ranking Member Eshoo. 
Members of the committee, thank you for the opportunity to be 
here today. I have provided written remarks, which I believe 
you have available to you. Having previewed the testimony of 
the other panelists, and just heard my good friend Chris give 
his testimony, I am delighted to see we are mostly in agreement 
on the key elements. In an effort to save time, I am going to 
summarize my comments.
    Let me start by formally thanking this committee, the 
entire Congress and the President for the passage of the 
legislation. This is a historic opportunity for public safety. 
A robust, reliable and secure broadband network will not only 
save citizens' lives, it will save first responders' lives on a 
daily basis.
    Now that FirstNet has begun, it is in the best interest of 
every state to work with FirstNet to ensure that all of the 
requirements are met. How can we make that happen? I can tell 
you from personal experience in Maryland building a statewide 
radio system, you have to go to the source, the actual users of 
the system. We were designing coverage for our system and we 
found a half-mile by half-mile area that didn't have radio 
coverage. Looking at it on the map, it was heavily wooded, only 
had a single road so it looked like it would be minimal impact. 
But when we spoke to the local emergency managers, we found out 
this area sees a high level of public safety activity. Because 
of its isolation, criminals have used it as a dumping ground 
for stolen vehicles, and even a body. There have been field 
fires in the summer and traffic accidents on the windy single-
lane road. This area needs coverage for police, fire and EMS. 
Even some federal task forces are now operating in the area. We 
never would have known this without the local input that we got 
during the design. This is why FirstNet needs to be involved 
with end users in the design and development of the broadband 
network.
    I can assure you, we want to help. I urge FirstNet to build 
on the foundations that already exist in states, not only the 
network infrastructure but also the working groups that have 
been solving communication problems for first responders over 
the last decade. I believe the nationwide public safety 
broadband network has a much greater chance of success if all 
states opt in. That would make interoperability much easier and 
also take advantage of the seamless design. Also, the upgrades 
would occur in unison, ensuring continuity of operation.
    To enable governors to make an informed opt-in decision, 
the states will need information on five key components. Number 
one is the network design security redundancy and reliability. 
Public safety needs a robust network and broadband devices that 
can operate during the worst conditions imaginable, because 
that is when our public safety folks are in the field. Number 
two: state assets that can be leveraged, towers, fiber optics, 
microwave, network operation centers. By using state assets 
which are built to higher standards than commercial networks, 
we increase reliability, and states should realize some cost 
offsets by virtue of their infrastructure investments in the 
nationwide network. Number three is coverage, both in building 
and rural. As stated earlier, only the state and local public 
safety leaders can speak to their needs. The early input will 
ensure the network meets the expectations of each community. 
Number four, network priorities. Long-term evolution, or LTE, 
as it is known, is a standard that allows for a wide range of 
priorities for network access under different types of 
emergencies. Often these priorities will be dynamic as the 
event evolves so local control is absolutely essential. And 
number five is the cost to operate and maintain. This is of 
great concern to states because they will be asked to pay an 
unknown amount to use and maintain the network. The costs need 
to be no greater than what they are paying for cellular service 
today.
    While it is possible that FirstNet could negotiate a better 
deal with national carriers, there are other potential partners 
in the region and at the local level. states need the ability 
to work with local business partnerships in order to help raise 
revenue where possible.
    In closing, I would like to express our excitement about 
this once-in-a-lifetime opportunity. It is going to ultimately 
save lives, protect people and property, and enhance our 
performance during times of national crisis as well as every 
day.
    With that, I thank you again and I look forward to your 
questions.
    [The prepared statement of Mr. Lehr follows:]

    [GRAPHIC] [TIFF OMITTED] T0378.022
    
    [GRAPHIC] [TIFF OMITTED] T0378.023
    
    [GRAPHIC] [TIFF OMITTED] T0378.024
    
    [GRAPHIC] [TIFF OMITTED] T0378.025
    
    [GRAPHIC] [TIFF OMITTED] T0378.026
    
    Mr. Walden. Mr. Lehr, thank you for your testimony. It is 
most insightful.
    We will now go to James A. Barnett, Rear Admiral, U.S. 
Navy, retired, former Chief of Public Safety and Homeland 
Security Bureau, Federal Communications Commission, and now a 
Partner and Co-Chair at Telecommunications Group, Venable LLP. 
So we welcome you with the broad range of background you bring 
and the experience, and we appreciate the report you have 
provided for each of us, and its at times colorful analogies. 
Admiral Barnett, thank you for being here. We look forward to 
your testimony.

               STATEMENT OF JAMES A. BARNETT, JR.

    Admiral Barnett. Thank you, Chairman Walden, Ranking Member 
Eshoo and distinguished members of the subcommittee and for the 
opportunity to talk about FirstNet's challenges and road to 
success.
    As you mentioned, I used to be the Senior Vice President of 
the Potomac Institute for Policy Studies, which is an 
independent, nonpartisan science and technology policy think 
tank in the area, and as such, I was pleased to serve as the 
Principal Investigator for a study titled ``What Should 
FirstNet Do First'', which as the chairman mentioned is there 
and offered for the record.
    FirstNet has many advantages and opportunities: a highly 
experienced governing board, 24 megahertz of great spectrum, 
and initial funding of $2 billion. But the challenges that 
FirstNet faces are daunting, as Chairman Ginn mentioned. The 
full funding of $7 billion is not enough for a nationwide 
network, and no model or precedent exists for establishing this 
network. Just like the failed D block auction, there are 
existential risks, and success is not assured. But everybody 
involved wants FirstNet to succeed, and in that spirit I would 
offer four recommendations. The first is to embrace the states, 
the second is, one size does not fit all, the third is to 
develop a cost model, and the fourth is to contract for 
expertise now.
    First, FirstNet must embrace the states in a way that it 
has not previously. Before the FirstNet board members were 
seated, there was a confusion that developed that public safety 
is both the user and the customer, as it has been in the past. 
The states, which may be huge stakeholders and customers for 
FirstNet, perceive that they have been ignored and excluded 
from the table. So for a chronically underfunded and 
undercapitalized network, alienating your customers at the 
outset is a huge problem. FirstNet can forestall the active 
consideration by some states to opt out statutorily if it opens 
its process. As I suggested in the FirstNet report, Chairman 
Ginn and the FirstNet board have reached out to the National 
Governors Association, to the governors, the state CIOs, the 
states' BTOP recipients, and this effort should be continued 
and expanded to fully incorporate governors and state CIOs into 
the process with direct input to the board and ultimately 
representation on the board. FirstNet must be open to early 
deployers, public-private partnerships, innovative arrangements 
from the state to attract private capital, public 
infrastructure and more users into the network. The talk about 
signing over state assets to FirstNet must give way to 
discussions about how FirstNet will serve the states' needs and 
how FirstNet can contractually use state infrastructure. 
Increased information sharing and transparency with the states 
will help also.
    To achieve Congress's central goal, FirstNet should adopt a 
principle of national interoperability with local control, and 
one size will not fit all. Some states and localities may wish 
to combine into regions for the network. Some states may wish 
to form public-private partnerships with carriers or public 
utilities. Some may be able to obtain essential network funding 
if they are allowed to proceed now with their deployment plans.
    FirstNet must retain the technical capability to administer 
the national network and ensure that it will be interoperable, 
but if it has that capability by contracting with experts, then 
the network can go faster and can achieve early wins.
    To attract funding into the network, FirstNet should 
consider what might be called a franchise operation under its 
control. The decision to reopen the question of whether BTOP 
recipients may proceed is a very encouraging development and is 
consistent with the concept that one size does not fit all and 
that a network of networks may be the key to success.
    FirstNet should develop a cost model and a financial 
analysis that will explain to state customers, public safety 
users and other stakeholders such as carriers and equipment 
providers what this network will cost to build and use. This is 
critically important. To move quickly and expertly, FirstNet 
should be allowed to contract with its cost model and financial 
analysis, and until this is developed, anyone making plans for 
use of the network would be speculating on what the services 
would cost and be. A cost model and plan would be a very high 
priority and must precede decisions that would limit where the 
model and plan might lead.
    FirstNet needs more expertise and human resources right 
away. The FirstNet board members are an extraordinarily 
qualified and a very talented and experienced group but they 
are a board and they are not a full-time staff. They need a 
full-time staff. Some employees are being obtained but FirstNet 
needs access to their expertise now quickly, and to help them 
analyze and plan and coordinate and manage, and the fastest and 
best way is to contract for that expertise and to use 
government employees to oversee those contracts.
    So thank you for this opportunity to talk to you about how 
FirstNet can be successful.
    [The prepared statement of Admiral Barnett follows:]

    [GRAPHIC] [TIFF OMITTED] T0378.027
    
    [GRAPHIC] [TIFF OMITTED] T0378.028
    
    [GRAPHIC] [TIFF OMITTED] T0378.029
    
    [GRAPHIC] [TIFF OMITTED] T0378.030
    
    [GRAPHIC] [TIFF OMITTED] T0378.031
    
    [GRAPHIC] [TIFF OMITTED] T0378.032
    
    [GRAPHIC] [TIFF OMITTED] T0378.033
    
    [GRAPHIC] [TIFF OMITTED] T0378.110
    
    [GRAPHIC] [TIFF OMITTED] T0378.111
    
    [GRAPHIC] [TIFF OMITTED] T0378.112
    
    [GRAPHIC] [TIFF OMITTED] T0378.113
    
    [GRAPHIC] [TIFF OMITTED] T0378.114
    
    [GRAPHIC] [TIFF OMITTED] T0378.115
    
    [GRAPHIC] [TIFF OMITTED] T0378.116
    
    [GRAPHIC] [TIFF OMITTED] T0378.117
    
    [GRAPHIC] [TIFF OMITTED] T0378.118
    
    [GRAPHIC] [TIFF OMITTED] T0378.119
    
    [GRAPHIC] [TIFF OMITTED] T0378.120
    
    [GRAPHIC] [TIFF OMITTED] T0378.121
    
    [GRAPHIC] [TIFF OMITTED] T0378.122
    
    [GRAPHIC] [TIFF OMITTED] T0378.123
    
    [GRAPHIC] [TIFF OMITTED] T0378.124
    
    [GRAPHIC] [TIFF OMITTED] T0378.125
    
    [GRAPHIC] [TIFF OMITTED] T0378.126
    
    [GRAPHIC] [TIFF OMITTED] T0378.127
    
    [GRAPHIC] [TIFF OMITTED] T0378.128
    
    [GRAPHIC] [TIFF OMITTED] T0378.129
    
    [GRAPHIC] [TIFF OMITTED] T0378.130
    
    [GRAPHIC] [TIFF OMITTED] T0378.131
    
    [GRAPHIC] [TIFF OMITTED] T0378.132
    
    [GRAPHIC] [TIFF OMITTED] T0378.133
    
    [GRAPHIC] [TIFF OMITTED] T0378.134
    
    [GRAPHIC] [TIFF OMITTED] T0378.135
    
    [GRAPHIC] [TIFF OMITTED] T0378.136
    
    [GRAPHIC] [TIFF OMITTED] T0378.137
    
    [GRAPHIC] [TIFF OMITTED] T0378.138
    
    [GRAPHIC] [TIFF OMITTED] T0378.139
    
    [GRAPHIC] [TIFF OMITTED] T0378.140
    
    [GRAPHIC] [TIFF OMITTED] T0378.141
    
    [GRAPHIC] [TIFF OMITTED] T0378.142
    
    [GRAPHIC] [TIFF OMITTED] T0378.143
    
    [GRAPHIC] [TIFF OMITTED] T0378.144
    
    [GRAPHIC] [TIFF OMITTED] T0378.145
    
    [GRAPHIC] [TIFF OMITTED] T0378.146
    
    [GRAPHIC] [TIFF OMITTED] T0378.147
    
    [GRAPHIC] [TIFF OMITTED] T0378.148
    
    [GRAPHIC] [TIFF OMITTED] T0378.149
    
    [GRAPHIC] [TIFF OMITTED] T0378.150
    
    [GRAPHIC] [TIFF OMITTED] T0378.151
    
    [GRAPHIC] [TIFF OMITTED] T0378.152
    
    [GRAPHIC] [TIFF OMITTED] T0378.153
    
    [GRAPHIC] [TIFF OMITTED] T0378.154
    
    [GRAPHIC] [TIFF OMITTED] T0378.155
    
    [GRAPHIC] [TIFF OMITTED] T0378.156
    
    [GRAPHIC] [TIFF OMITTED] T0378.157
    
    [GRAPHIC] [TIFF OMITTED] T0378.158
    
    [GRAPHIC] [TIFF OMITTED] T0378.159
    
    [GRAPHIC] [TIFF OMITTED] T0378.160
    
    [GRAPHIC] [TIFF OMITTED] T0378.161
    
    [GRAPHIC] [TIFF OMITTED] T0378.162
    
    [GRAPHIC] [TIFF OMITTED] T0378.163
    
    Mr. Walden. Thank you, Admiral. We appreciate your 
testimony and the report.
    We will go now to our final witness on this panel, the 
Chairman and CEO of Rivada Networks, Declan Ganley. Mr. Ganley, 
we are delighted you are here this morning and we look forward 
to your testimony, sir.

                   STATEMENT OF DECLAN GANLEY

    Mr. Ganley. Good morning, Chairman Walden and Ranking 
Member Eshoo. Thank you for your invitation this morning.
    My wife's family business was headquartered in World Trade 
Center Two, and 9/11 was a very impactful event for my family, 
and I had rolled out a broadband across several countries in 
Europe. I do not envy Chairman Ginn the task that he faces in 
getting this thing rolled out here, but 9/11 brought home to us 
in a very personal way the issues that the 9/11 Commission 
report covered so well highlighted, of course, the 
establishment, the passing of this legislation and the 
establishment of FirstNet goes a long way to achieving the 
objectives of the 9/11 Commission report.
    I want to say right at the outset, I see no other way to 
get it done other than this in terms of what FirstNet has been 
tasked with doing, getting the job done and getting it done as 
expeditiously as possible, and the board that has been put 
together certainly contains the competence, the ability, the 
public safety expertise to accomplish many of those goals.
    During Hurricane Katrina, Rivada Networks, my company, 
deployed emergency cellular base stations in Louisiana with 
satellite backup, and while able to provide emergency 
communications to first responders, we found that when usage 
capacity was at a maximum, we were unable to provide 
prioritized access to those who needed it. So there were times 
when the system would be at maximum capacity, a Coast Guard 
admiral would key up, try to get on and would have to wait to 
be able to get on.
    And as a result of that experience, Rivada spent a number 
of years developing tiered priority access--we call it TPA--
allowing us to allocate access to bandwidth based on 
prioritization of the end user, and having developed tiered 
priority access, we realized that if we could tier priority 
access at a local level, we could do it on any scale, allowing 
bandwidth to be commoditized and allocated to users based on 
real-time valuation, dynamic allocation of that bandwidth and 
of access to that bandwidth. TPA allows public safety control 
over its own permanent, dedicated network--it is their 
network--granting full and absolute priority when needed 
through a throttling mechanism while making the surface 
bandwidth dynamically available to the wholesale commercial 
users during the significant periods of fallow time when the 
bandwidth is not being used by emergency responders. This 
dynamic-spectrum arbitrage revenue-generating capability can 
allow private capital sufficient security to construct these 
networks for cities and states and in a great many of these 
cities and states will provide surplus funding, which could be 
used to help FirstNet and fund the FirstNet mission.
    In our view, FirstNet has the best opportunity to achieve a 
nationwide public safety network that is fully interoperable, 
and while states opting out of the FirstNet model is permitted 
by the legislation, it is, in our opinion, neither optimal nor 
necessary. The best path to success for states and cities is 
under the FirstNet umbrella. The ability to provide a dedicated 
network that guarantees absolute prioritization for public 
safety while eliminating the burden to the taxpayer and 
generating surplus revenue to fund the maintenance, expansion 
and improvement of the network is obviously compelling. 
Partnering with private capital, public safety gains a state-
of-the-art network built to public safety standards and a new 
stream of revenue that eases and in cases may even eliminate 
this burden on the America taxpayer.
    And so these core goals, the highest quality of public 
safety network built to public safety standards, flexibility to 
allow these networks to start getting built out in as 
expeditious a manner as possible, and a positive revenue 
outcome are unlikely to be achieved in a more efficient way 
than that type of approach.
    So in essence, the good news is, because this spectrum that 
this legislation allocated is prime real estate, it is very 
valuable, public safety can own and control it themselves, but 
by allowing cities, states, FirstNet to be able to allow 
dynamic access to that spectrum, you have a source here to 
generate revenue that under the legislation can offset and 
maybe even eliminate the burden to the U.S. taxpayer of 
building these networks. That has got to be good news for the 
American taxpayer, and for public safety.
    [The prepared statement of Mr. Ganley follows:]

    [GRAPHIC] [TIFF OMITTED] T0378.034
    
    [GRAPHIC] [TIFF OMITTED] T0378.035
    
    [GRAPHIC] [TIFF OMITTED] T0378.036
    
    [GRAPHIC] [TIFF OMITTED] T0378.037
    
    [GRAPHIC] [TIFF OMITTED] T0378.038
    
    [GRAPHIC] [TIFF OMITTED] T0378.039
    
    [GRAPHIC] [TIFF OMITTED] T0378.040
    
    [GRAPHIC] [TIFF OMITTED] T0378.041
    
    [GRAPHIC] [TIFF OMITTED] T0378.042
    
    [GRAPHIC] [TIFF OMITTED] T0378.043
    
    [GRAPHIC] [TIFF OMITTED] T0378.044
    
    [GRAPHIC] [TIFF OMITTED] T0378.045
    
    [GRAPHIC] [TIFF OMITTED] T0378.046
    
    [GRAPHIC] [TIFF OMITTED] T0378.047
    
    Mr. Walden. Mr. Ganley, thank you very much for your 
testimony. Thanks to all of you on the panel. We will now go 
into the next phase of our hearing, which is the question-and-
answer part.
    I want to ask Mr. McIntosh and Mr. Lehr representing the 
two states, well, the Commonwealth of Virginia and the state of 
Maryland--I will try to get that right--in the governors' 
letter to us, they point out that they remain disappointed 
states were not better represented on the FirstNet board. So 
what is really going on there?
    Mr. McIntosh. Thank you, Mr. Chairman. As was alluded to by 
all the members up here, the partnership--one thing we have 
learned through interoperable communications is partnership 
begins with participation.
    Mr. Walden. Right.
    Mr. McIntosh. And the fact that there is not a current 
state official on the FirstNet board----
    Mr. Walden. But there is supposed to be somebody by statute 
on the board representing the state interest, right?
    Mr. McIntosh. The one member that I am aware of that is 
there to fulfill that requirement is not a current state 
official.
    Mr. Walden. How does that happen?
    Mr. McIntosh. I don't know.
    Mr. Walden. Mr. Lehr, do you care to comment on that point? 
Who made the appointments?
    Mr. Lehr. Chris is absolutely correct. The current member 
is a former CIO Of two states, I think California and Michigan, 
but not currently representing or doesn't hold an active role 
in the state. Also, Mr. Chairman, I will point out that when 
the National Governors Association met two weekends ago in 
Washington, the Wyoming Governor, Governor Mead, also made a 
pitch that not only should the NGA be represented but perhaps a 
governor himself or herself should be the representative on the 
FirstNet board.
    Mr. Walden. Because I assume--I won't put words in Admiral 
Barnett's mouth but he was an admiral and he was at the FCC and 
then he was off at a think tank and now doing whatever it is 
you do, you don't get to speak for the Navy now, right?
    Admiral Barnett. No, sir, I do not.
    Mr. Walden. And so why would we have a federal employee 
speaking for the states? Mr. Ginn, how did that happen?
    Mr. Ginn. Mr. Chairman, I was not privy to the appointment 
of the board.
    Mr. Walden. Who makes the appointments to the board?
    Mr. Ginn. The Secretary of Commerce.
    Mr. Walden. All right. So we will take up that matter with 
the Secretary of Commerce then.
    Mr. Ginn. But just a comment----
    Mr. Walden. Are you comfortable with that situation?
    Mr. Ginn. Well, I would say this. Diversity is really 
important, but you reach a point where knowledge and competence 
is just as important.
    Mr. Walden. So are you saying that the states don't have 
anybody that would be knowledgeable or competent enough to 
represent----
    Mr. Ginn. No, I am just saying that the current appointee 
is an outstanding member of the board.
    Mr. Walden. Well, I don't dispute that. It is just that we 
wanted somebody that actually was from a state. I guess we 
should have been more clear in the statute, but somebody 
representing the states' interests we thought would mean 
somebody from a state, not from the federal bureaucracy.
    Mr. Ginn. I guess that got interpreted as since she had 
been a CIO for both California and Michigan, that she met the 
requirement.
    Mr. Walden. Well, it feels like an insider deal to me in 
terms of federal government pretending to represent somebody it 
is not, and that is not any aspersion on the individual. I am 
just saying that it seems to me it would be better if actually 
the governors had that say in making a recommendation. I 
realize you don't make that appointment but, hey, you're the 
only one we have before us today.
    And you and I have talked on a number of occasions, Mr. 
Ginn, starting at the end of last year about some of the 
urgent, specific problems you felt needed to be rectified 
through legislation, and I know in your testimony you said you 
wanted to work with Congress to explore obvious and reasonable 
measures. This is your opportunity to make those obvious 
measures known to us and to the public. Can you be real 
specific about the issues you are encountering and what it is 
you think needs to be changed statutorily?
    Mr. Ginn. Well, I think the way to start this is to say 
that someone coming from a commercial enterprise and faced with 
the acquisition and procurement rules and government, you see 
that potentially they can increase the costs or extend the time 
that we can build this network, and what I would suggest is 
that we work together looking at those procedures and give us 
the freedom to really execute this network more efficiently 
than we otherwise could. So that is the point I made in my 
testimony.
    Mr. Walden. Do you have specific recommendations for us? 
Because when we talked at the end of the year, I was under the 
impression that you had some or were at least developing some, 
because there was----
    Mr. Ginn. Well, we have developed some. We have actually 
submitted some recommendations to your staff and the staff at 
the Senate, and what we would like to do is take the time to 
sit down with you and discuss those. We are not trying to move 
away from what is competitive and open, and all the 
requirements that I know that you would insist on and I would 
insist on, but all I am saying is, government rules in a 
complex project like this are not necessarily geared to----
    Mr. Walden. Well, that is why I was hoping in the context 
of this hearing, we would get more of that out on the table.
    My time is now expired so I will recognize the gentlelady 
from California, Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman, and thank you to each 
of the witnesses. You have been absolutely terrific, and I 
thank you for what you are doing. What I really have drawn out 
of this and I appreciate is the wonderful spirit that is at the 
table, and there are obviously some sticky wickets that we have 
to work out. This is the first time in the history of our 
Nation that we are taking this on, and each one of you 
mentioned that in some way, shape or form, but the spirit in 
which you have approached this, I really appreciate and I think 
that that remains with us as we work our way through all of 
this.
    Let me start with Mr. Ginn. Thank you for being the first 
heading up FirstNet. Congratulations to you. The chairman just 
mentioned your meeting with him. We met in my Palo Alto office, 
my district office, on the 21st of February, and you also met 
with Mr. Waxman to go through the concerns that you have. I 
think the sooner you get these issues to us, the specifics of 
them, that we can start to work on them because the 
subcommittee wants all of this to work just the way you do, and 
you know that I was concerned that what you were sharing with 
me would ensnare the work and really throw sand in the gears 
relative to ensuring that we have a nationwide interoperable 
public safety network. So the sooner you get this to us, I 
think the better off we are going to be.
    What I would like to ask is, what steps is FirstNet taking 
to achieve economies of scale in device costs? I have been 
concerned about that all along, and if you could just answer 
that as quickly as possible because I have three other 
questions I would like to ask.
    Mr. Ginn. OK. Well, good. Well, one of the advantages of a 
national architecture is, you take advantage of scale, and with 
scale, you get reduced cost, and specifically with terminals, I 
think what is going to come out of this program is a completely 
engineered terminal for first responders, and it is going to be 
multichannel, it is going to have special features built into 
it. It will be positioned to service police and fire and 
emergency medical. And when you order in volumes, you can drive 
down the costs.
    Ms. Eshoo. Now, have you considered integrating adjacent 
spectrum bands used by commercial wireless providers into 4G 
LTE-based public safety devices as a way to drive down cost?
    Mr. Ginn. Absolutely.
    Ms. Eshoo. Good, good. And given the sensitive nature of 
data that will travel across the nationwide networks, what 
steps is FirstNet considering to ensure that security is built 
into the network from day one?
    Mr. Ginn. It is a really important issue. Cybersecurity has 
got to be a part of the system.
    Ms. Eshoo. Good.
    Mr. Ginn. We are going to rely on DHS and Department of 
Defense, who have some real experts in this arena, to help us 
put that plan in place.
    Ms. Eshoo. Is it too early, or has the FirstNet board 
received threat and vulnerability briefings from agencies such 
as DHS or NSA?
    Mr. Ginn. Well, what we----
    Ms. Eshoo. It might be too early for that. I don't know.
    Mr. Ginn. Let me tell you where we are.
    Ms. Eshoo. Quickly, because I have 59 seconds left.
    Mr. Ginn. From a nationwide point of view, from our point 
of view, a number of things have to be in place: 
interoperability, which means that these systems not only have 
to communicate between local police and fire but they have to 
be able to communicate across states, number one. You have to 
have a nationwide security system. You have to have reliability 
standards that are nationwide, and because we anticipate an 
application engine for the entire network. That needs to be 
engineered on a national basis. So we are in the process of 
establishing these. When we establish them, we are open to 
states to do whatever they want, and just let me say here----
    Ms. Eshoo. Well, we are just about out of time. Maybe you 
can respond in writing.
    If I might, Mr. Chairman, and I appreciate what was given 
to us and the work that was done by the Potomac Institute for 
Policy Studies, but as I opened it this morning, I looked at 
page 8. I am struck by something, and again, I appreciate all 
the work that has gone into this, and I will read the entirety 
of the report. There were women involved in this, women Members 
of Congress, to produce this legislation, namely Kay Bailey 
Hutchinson in the Senate. She contributed mightily from the 
very beginning on this issue. You are looking at someone that 
worked very hard to keep this bipartisan and to produce a great 
product. So, looking at this, it seems as if it is a very old 
Congress that doesn't have any women and women involved in it, 
and I don't think that is the message that you intended to send 
out, but I was struck by it and I wanted to raise it, and it is 
National Women's History Month too. So thank you for our 
service to our country. We are in service to our country as 
well.
    Mr. Walden. May I take a point of personal privilege?
    Ms. Eshoo. Certainly, Mr. Chairman.
    Mr. Walden. You just referred to a very old Congress, and I 
see my picture is one of those.
    Ms. Eshoo. No, you deserve to be there. You are the 
chairman of the committee.
    Mr. Walden. But it is the old part I was----
    Ms. Eshoo. No, no, no, no.
    Mr. Walden. This is now an age discrimination issue I am 
going to take up with you at a later date.
    Ms. Eshoo. No, no, no. You know what I am referring to, 
Congresses of yesteryear.
    Mr. Walden. And you were terrifically involved in this 
whole process, and you and I and our staffs spent many, many 
hours involved, and we couldn't have done it without your 
leadership and help.
    We will now turn to the vice chairman of the subcommittee, 
Mr. Latta.
    Mr. Latta. Thank you very much, Mr. Chairman, for yielding, 
and if I may say, sometimes it is not the age, it is sometimes 
the mileage.
    Mr. Walden. I take a personal----
    Mr. Latta. I appreciate you for yielding.
    Back when I was in the Ohio General Assembly in the 1990s, 
Ohio was in the development of the state's land mobile radio 
system, what we call the Multi-Agency Radio Communications 
System, or MARCS for short. And you fast forward to today and 
MARCS is currently providing a critical mission voice and data 
for Ohio's public safety and first responders. The system is 
currently going through a $90 million upgrade and is actively 
pursuing local government and the adoption is steadily 
increasingly. Now with the establishment of FirstNet last year, 
the folks back in Ohio were concerned that the FirstNet board 
has already designed a system without that state input, and if 
I could, and following on with Chairman Walden talked about a 
little bit earlier, Mr. Ginn, if I could ask this first 
question to you. In your testimony, you are very encouraging to 
the committee in that you appear to recognize the need for 
state and local input into FirstNet's decisions. You have also 
indicated your intention to maintain local control and 
management of the network. And again, as stated by the 
chairman, Ohio and other states have raised concerns about 
their inclusion in the network design and the build process and 
about the need for local control and about the financial 
impact, and on page 4 of your testimony, you do state that it 
must be affordable to the user and states' participation in 
FirstNet.
    I also hear you say that it is your intent to reach out to 
the states, but given that this has not happened to a 
significant degree some 6 months into the process, can you 
assure us and the states when this is going to start happening, 
that the states are going to be involved in these decisions 
that are happening, and especially the governors because I know 
in Ohio, they are very, very concerned about what is happening, 
and so if I could just pose that first question to you as to 
some kind of a timetable.
    Mr. Ginn. Well, yes. I think first of all, there is a lot 
of outreach already taking place. Many of us have attended many 
forums, communicated about FirstNet and its goals and 
objectives, and there is an enormous outreach effort in place 
today. Now, I think you need to understand that what we 
anticipate is a national architecture with local control and 
operations, OK? And that is the way I think this network has to 
operate, and if you take a look at Adams County, Colorado, I am 
fascinated by what happened there in the BTOP arena. Here you 
had local public safety, you had local political structure. 
They got together. They dedicated buildings and dark fiber and 
all kinds of capabilities to that system and built it at a 
very, very inexpensive cost. So once we get the national 
architecture in place, we are quite open to states and cities 
constructing their own system so long as they follow the 
national standards around interoperability, cybersecurity and 
reliability.
    Mr. Latta. And again, it is getting that information to the 
states, because again, there is very much of a concern that 
they are not involved in the process.
    And if I can shift real quick to Mr. McIntosh, if I can ask 
you this. On page 4 of your testimony, you cite concerns 
regarding the costs associated with public safety broadband 
network and that resonates with me because I have heard those 
same concerns again from your counterpart in the state of Ohio, 
and I can tell you, and I am not sure how it is in Virginia, 
but I have a lot of volunteer departments out there, and I try 
to hit as many of them and support the pancake breakfasts and 
the fish fries and the chicken barbecues that they have just to 
raise funds for those departments. And have you seen any 
evidence of a business or cost recovery model evident yet in 
FirstNet planning?
    Mr. McIntosh. Not from FirstNet, no, sir. The only--we have 
been approached by the private sector on some business and cost 
recovery models, some of which are intriguing, but as far as 
direct communications from FirstNet, no, we have not gotten 
anything.
    Mr. Latta. Mr. Lehr, may I ask you that same question?
    Mr. Lehr. Congressman Latta, let me first of all let you 
know in front of me I have an email from Darryl Anderson from 
the state of Ohio. As soon as he heard that I was going to be 
testifying today, boom, the email lit up and, make sure you 
tell them that Ohio is in the same boat, we need to get some 
more information. He was very complimentary of your support for 
them with their Ohio MARCS system.
    I can tell you that the public safety community, we are the 
ultimate, I hate to use the term ``old boy network,'' after 
especially the admiral got nailed for that, but when we are 
building new 700 voice systems in the state of Maryland, so the 
first thing I did was call up Ohio, and your CIO and Darryl got 
on the phone with our CIO and myself and gave us the benefit of 
lessons learned, what they did, so the public safety community 
is used to having those kind of forums and exchanging 
information. I don't think Verizon calls up AT&T when they are 
going to deploy their 4G network and says, tell us how you did 
it. So that is the kind of information we are hoping FirstNet 
is going to tap into.
    Mr. Latta. Thank you. Mr. Chairman, my time has expired and 
I yield back.
    Mr. Walden. The chairman recognizes the former chairman of 
the committee, Mr. Dingell, for 5 minutes.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy.
    I first want to welcome Ms. Diane Kniowski, who is General 
Manager of several broadcast stations in western Michigan. I 
want to thank her for the work she and her stations do to 
provide viewers with excellent service and emergency 
information.
    Now, I want to also welcome Mr. Ginn and the rest of our 
panel members. The Middle Class Tax Relief and Job Creation Act 
requires FirstNet to take all actions necessary to consult 
with, amongst others, federal, state, tribal, local public 
safety entities in building and operating FirstNet. Now, Mr. 
Ginn, these questions will be yes or no. Now, will FirstNet 
establish long-term relationships with state, regional, tribal 
and local public safety entities to ensure their input receives 
full consideration in FirstNet's proposed architecture as well 
as in its ongoing operations? Yes or no.
    Mr. Ginn. Yes.
    Mr. Dingell. Mr. Ginn, again, is the preliminary technical 
and engineering work initiated by FirstNet based on known 
public safety requirements? Yes or no.
    Mr. Ginn. Yes.
    Mr. Dingell. Now, Mr. Ginn, does such work represent a 
foundation upon which outcomes of your consultations with 
regional, state, local, tribal and public safety entities will 
be based? Yes or no.
    Mr. Ginn. Yes.
    Mr. Dingell. Now, Mr. Ginn, in other words, this 
preliminary design work is just that and not final? Yes or no.
    Mr. Ginn. It is not final.
    Mr. Dingell. Thank you. Mr. Ginn, further, will the network 
allow for local customization to meet unique local operational 
requirements? Yes or no.
    Mr. Ginn. Yes.
    Mr. Dingell. And I want to apologize to you. I hate to do 
this to witnesses but it helps us get a lot on the record.
    Mr. Ginn, will FirstNet consult with a variety of equipment 
manufacturers and vendors as it considers operations for 
network architectures, technologies and deployment options? Yes 
or no.
    Mr. Ginn. Yes.
    Mr. Dingell. Mr. Ginn, many states like my state of 
Michigan find themselves presently in serious financial 
straits. I think it is extremely important that FirstNet work 
with the states to make the operation and the maintenance of 
the public safety network affordable for all. Do you commit to 
doing so in a meaningful fashion? Yes or no.
    Mr. Ginn. Yes.
    Mr. Dingell. Now, I would like to return to the issue of 
FirstNet's architecture. I think it is very important that 
FirstNet serve the reliability, security and functional needs 
of public safety around the country. Recognizing there are no 
absolute guarantees when it comes to network resiliency, I 
would like to ask you the following questions. Again, Mr. Ginn, 
in regions of this country that experience severe weather such 
as hurricanes, will FirstNet be designed to ensure that towers 
can withstand these forces? Yes or no.
    Mr. Ginn. Yes.
    Mr. Dingell. I assume you will also be doing that with 
regard to backup power facilities. Is that correct?
    Mr. Ginn. Yes.
    Mr. Dingell. And also with regard to things like 
earthquakes and other disasters. Am I correct?
    Mr. Ginn. Would you repeat that, sir?
    Mr. Dingell. And so you are going to see to it that it is 
hardened against other natural disasters and also perhaps the 
activities of terrorists and others. Is that right?
    Mr. Ginn. Yes, sir.
    Mr. Dingell. Now, Mr. Ginn, will it also be designed with 
sufficient power-surge protection?
    Mr. Ginn. Yes.
    Mr. Dingell. Mr. Ginn, will the network be designed for 
peak usage capacity?
    Mr. Ginn. Yes.
    Mr. Dingell. Now, Mr. Ginn, will the network be designed to 
ensure that public safety has network priority at all times? 
Yes or no.
    Mr. Ginn. Yes.
    Mr. Dingell. Mr. Ginn, will the network be designed to 
ensure that critical mission services have enhanced security? 
Yes or no.
    Mr. Ginn. Yes.
    Mr. Dingell. I want to thank you, Mr. Ginn. You have been 
most gracious, and I want to encourage you to keep these 
matters in mind as you implement the public safety portions of 
the Act. Thank you for your courtesy.
    Mr. Chairman, I thank you for your kindness to me. Have a 
good day.
    Mr. Walden. The gentleman yields back the balance of his 
time. The Chair now recognizes the former chairman of the 
Commerce Committee, the gentleman from Texas, Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. And I want to say on 
the record that I want to commend you and Ms. Eshoo for holding 
this hearing. This is an example of the committee at its 
finest. FirstNet is really not operational. I think your first 
board meeting was last month, and we are conducting an 
oversight hearing in a bipartisan fashion to try to make sure 
that things go as they should go, so this shows the country 
that we can do things that are positive, and I want to commend 
both of you.
    I want to tell Mr. Ginn that it is not all peace and love. 
I am quite frankly skeptical of this whole concept. I would not 
have designed the legislation the way it was designed. I would 
not have passed the bill that became law exactly as is, but it 
is what it is, and we want you to be successful. But there are 
a few of us, at least me, that have some grave doubts about 
this, and again, knowing that you are just getting started, you 
are going to get the benefit of the doubt, but some of the 
questions that former Chairman Dingell just asked you, the only 
question he didn't ask was, when FirstNet is fully operational, 
will it have a direct line to heaven without a long-distance 
call. If you do everything you say you are going to do, this is 
going to be a phenomenal network, and I hope it is successful. 
But we are going to keep a watchful eye as FirstNet develops. I 
just want that to be on the record.
    Now, my specific questions are Texas specific, which 
normally I don't ask regional questions, but because FirstNet 
is in its infancy and Texas is something of an exception in 
that it had a BTOP grant in the Harris County-Houston, Texas, 
area, I am going to ask you some fairly specific questions, and 
if you need to have staff take a look at them, I totally 
understand.
    The first question deals with the BTOP project that was 
already underway in Texas. Texas has gotten an FCC waiver to 
continue that, but in the site visit that your agency made to 
Texas, they were told that if Texas wants to participate in 
FirstNet, they have to give the current assets they have 
already put in place to FirstNet. The question is, wouldn't the 
effect of this transfer of assets eliminate the state's 
statutory authority to opt out of the FirstNet deployment since 
it would otherwise be left with no beneficial access to those 
assets?
    Mr. Ginn. Well, first of all, Texas was funded through a 
different program than the BTOP program, and just let me say 
that we have included it because we would like to implement a 
showcase project. We would actually like to use these BTOP 
locations including the Houston area as showcases. Let us build 
them, let us take a look at them, let us let public safety take 
a look at them, let us upgrade our designs as a result of them, 
and then continue to implement across the country.
    I don't know what happens with the investment. Let me just 
say this. I am really--the issue of opt-out and opt-in, I 
think, is not so important. What is important is getting a 
national architecture in place so that you have 
interoperability, that you have cybersecurity, that you have 
network standards, and then who builds it and who owns is less 
important to me so long as we have those principles in place. 
So that is where I come out. I don't know who took that 
position but I will try to understand it and----
    Mr. Barton. I like your answer. I think that is a fair 
answer.
    In my last 14 seconds, I have one more Texas-specific 
question. In the first FirstNet board meeting, which was 
recently held, the board approved Resolution 18, which directs 
the board to negotiate spectrum lease agreements with BTOP 
public safety grant recipients within 90 days. Texas was not 
included within that resolution, and there are concerns with 
the special temporary authority process because it is 
temporary, causing jurisdictions concern about investing money 
into the network and planning in Texas. Is there planning 
within NTIA and FirstNet to ensure that Texas is allowed to 
negotiate a long-term spectrum lease agreement, and if so, when 
might that be expected?
    Mr. Ginn. Well, hopefully within the next 90 days.
    Mr. Barton. Well, that is a good answer. But do you 
understand the intent? Texas doesn't want to negotiate a short-
term deal and then not be able to do a long-term deal. What I 
am hearing you say is that in your position, you are open to 
that.
    Mr. Ginn. Well, yes, I am open to who builds the network in 
Texas so long as you meet the national standards that we put in 
place.
    Mr. Barton. It sounds good to me. I have several other 
questions but I will submit them for the record. Thank you, Mr. 
Chairman.
    Mr. Walden. Thank you. I will now turn to the gentlelady 
from California, Ms. Matsui, for 5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman. Thank you all for 
being here.
    Mr. Ginn, I have a few questions here, following along with 
the question about states. There have been a lot of questions 
regarding outreach and some aspects of this, and just generally 
speaking, would you commit to getting these critical questions 
that have been occurring answered to the states' satisfaction 
before they have to make a decision about whether to opt out of 
the FirstNet network?
    Mr. Ginn. Well, I think one of the first principles, if you 
don't satisfy your customers, you don't succeed. So the idea 
that we are somehow not interested in custom requirements is 
just not true. We are going to spend a lot of time trying to 
understand them and incorporate them into our engineering.
    Ms. Matsui. That is a good answer. So you are going to be 
continuing to reach out to the states to ensure that their 
concerns are addressed, because there are some states obviously 
hesitant to sign on as a partner, which I believe will not 
really benefit the goal here, but if it seems like--I don't 
know what this is--if not enough states could ultimately opt 
out, do you have a backup plan for this?
    Mr. Ginn. Well, as I said before, to me, the opt-in, opt-
out issue is not so important as us putting in place national 
standards that everybody agrees to so that we have 
interoperability, so that we have cybersecurity, that we have 
network standards. Who builds the network and operates the 
network beyond that, I think, is open and negotiable.
    Ms. Matsui. OK. Following along with that then, in his 
testimony, Mr. Barnett outlines a network-of-networks approach 
in which FirstNet's network will be based on a shared 
architecture approach with each smaller network presumably 
controlled at the state or local level, and Mr. Barnett argues 
that such an approach would present many more options to get 
private equity and public infrastructure involved. What do you 
think about his recommendation?
    Mr. Ginn. Well, the problem I have with it is I think you 
take risks around the issue of interoperability. If you have 15 
people engineering a network, how you come out of that with 
national interoperability, I think, is a risk, the same with 
cybersecurity and the same with the standards of maintenance 
and reliability.
    Ms. Matsui. OK. I just right now would just like to make a 
statement for the record. I know it was brought up today about 
an individual that is on the FirstNet board who apparently 
there is some concern about whether this individual has 
knowledge to fulfill that position. I must say that this 
individual has been a CIO of two large states, Michigan and 
California, and I would just like to state for the record that 
she definitely understands the state focus, and, I just need to 
say for the record. I think it is important because this board 
is really just starting to form to a great degree and I think 
it is really very important that you get the best people there 
who understand what is going on at the state level. So I just 
want to make that comment. I appreciate very much, and if you 
want to make a comment, Mr. Ginn.
    Mr. Ginn. I would just say that she is an outstanding 
talent and I am so pleased with having her on board.
    Ms. Matsui. Thank you, and I yield back the balance of my 
time.
    Mr. Walden. The gentlelady yields back the balance of her 
time. The Chair now recognizes the gentleman from Nebraska, Mr. 
Terry.
    Mr. Terry. Thank you, Mr. Chairman.
    Mr. Ginn, we will just stay with you. First of all, I am 
going to associate myself slightly with Mr. Barton's remarks. 
This seems to be such a monumental task, a huge beast that I am 
just wondering what its ultimate costs and bureaucracy will end 
up being. That is just a comment, not a question.
    I am curious. This is a question. The way it has been 
presented or I am envisioning what you are saying is, is it 
accurate to say this is a public safety intranet system 
nationwide?
    Mr. Ginn. Yes. I have been trying to think of a way to 
explain it simply, but let us just think of your electrical 
grid. We are going to put a wireless grid in place, and 
conceptually in any state or city, you can plug in the 
applications that make sense for running your operations. So 
with the app engine that we are going to put in, it is really 
going to revolutionize public safety. Let me put it to you this 
way. When you got your first cell phone, could you have 
predicted the number of apps that are available to you today?
    Mr. Terry. No, I couldn't, but I guess what I am saying is, 
there are not going to be other users accessing these 
transmission wires. I mean, there are not going to be other 
state activities or university activities or medical hospital 
to medical hospital activities? This is all going to be just 
traffic from public safety?
    Mr. Ginn. That is my understanding of the legislation, 
although hospitals may be included. I am not sure.
    Mr. Terry. All right. That is my understanding too. I just 
wanted to make sure, so I would call that an intranet when it 
is just, other users not allowed to be involved in that.
    Now, in your testimony you said that FirstNet must be 
larger, more resilient and more secure than commercial 
networks. I assume that is why it is more of an intranet than 
an internet, but you also stated it is going to be cheaper for 
users than any alternatives but we don't know what the costs 
there are, so I would want to know how it is going to be 
cheaper, but can you explain how a better network is going to 
be cheaper when by definition you have fewer users on that 
network?
    Mr. Ginn. Yes. I think the assumptions we are making here 
with scalability, with terminals, for instance, instead of 
ordering several thousand, we are ordering 4 to 5 million, we 
drive down dramatically the cost of the terminal. The same with 
radio access networks. If you order in volume, you get lower 
pricing.
    Mr. Terry. So you are going to be the central supplier of 
the equipment to each one of the public safety entities, so 
Omaha Fire Department comes to you for their handhelds?
    Mr. Ginn. Well, if they do, they will be able to get it, in 
my opinion, a lot cheaper.
    Mr. Terry. What do they do with their old equipment?
    Mr. Ginn. With their older?
    Mr. Terry. Their current handheld devices, radio services 
that they already have, do they scrap what they have?
    Mr. Ginn. Well, I think for mission-critical services, they 
will be used for a number of years, but for basic cellular 
traffic, that will be converted to the network almost 
immediately.
    Mr. Terry. OK. That is a question that several of our 
public safety and our state OI has asked me, are they going to 
be able to use the same equipment, are they going to have to 
swap it out or buy from you. There is a lot of unanswered 
questions here, and I understand it is very embryonic stage.
    Mr. Ginn. Yes. All of the above, by the way.
    Mr. Terry. All of the above?
    Mr. Ginn. And I think each state is going to have to make 
its own decisions about the rate of adoption and just what they 
implement in their state.
    Mr. Terry. All right. Last question. Does the FirstNet plan 
on charging municipality users to use the network?
    Mr. Ginn. The rate structures really haven't been 
developed, and I just would prefer not to comment until we have 
a sense of what our total costs are going to be and how we 
recover them.
    Mr. Terry. All right. Perfect. Yield my second.
    Mr. Walden. The gentleman yields back the balance of his 
time. The Chair now recognizes the new ranking member for the 
hour, Mr. Welch.
    Mr. Welch. Thank you very much.
    How does FirstNet plan to ensure that rural areas get 
access to the public safety broadband network? I know you 
probably have been talking a little bit about that but, we have 
got problems with the build-out in rural areas that are 
different, as you know, than urban areas.
    Mr. Ginn. I think the answer is that in some cases----
    Mr. Welch. Can I interrupt? I think I jumped ahead of the 
line. All right. We are on the verge of doing something that 
Congress doesn't like to do, jump over seniority. Very 
dangerous when you are the jumper, so thank you, Mr. Pallone. 
Go ahead.
    Mr. Ginn. I think in some cases, we might negotiate with 
one of the existing carriers who now serves the rural areas to 
cover it.
    Mr. Welch. So you would partner with local carriers in 
rural areas?
    Mr. Ginn. Absolutely, and we would partner with rural local 
telephone companies or we might even cover those rural areas 
with satellite.
    Mr. Welch. So is the partnering going to save you some 
money and also----
    Mr. Ginn. You would hope so. I mean, we have talked about, 
it has been mentioned in this forum about the value of the 
spectrum, and so we would use that to the maximum advantage to 
get perhaps a carrier to serve a rural area in exchange for 
some other use of the spectrum in another city.
    Mr. Welch. All right. Let me just ask you one other thing. 
It is terrific of the Chair to have this hearing because it is 
tough to get a hearing before this committee and subcommittee, 
so all of us are eager to get the 1-2-3 problems that you see 
as the biggest impediments to being successful in the effort, 
so what would you describe those to be?
    Mr. Ginn. What would----
    Mr. Welch. You have got challenges. You have got 
impediments. You have got regulations.
    Mr. Ginn. Yes, we do.
    Mr. Welch. You have got hassles, and you are being polite 
here, OK? So just tell us what is going on, the biggest 
problems and impediments this committee needs to be aware of.
    Mr. Ginn. As I tried to say in my opening remarks, this is 
an enormous technical challenge.
    Mr. Welch. Well, we know that.
    Mr. Ginn. And basically trying to pull all the technical 
issues together along with a new----
    Mr. Welch. I am not asking you that. That is the challenge. 
I am asking you what are the things that we are doing or 
policy-wise that are getting in the way of you being able to 
succeed in taking on that challenge?
    Mr. Ginn. Well, the chairman and I have had these 
discussions.
    Mr. Welch. Yes, but we haven't.
    Mr. Ginn. And if you look at government acquisition rules 
and procurement rules, in my opinion, they were designed for a 
specific purpose.
    Mr. Welch. So if you would change them, you would do what?
    Mr. Ginn. Well, I would greatly simplify them.
    Mr. Welch. Give me an example.
    Mr. Ginn. Well----
    Mr. Welch. Look. Let me----
    Mr. Ginn [continuing]. Right now----
    Mr. Welch. We have to get real here. I mean, this is a big 
problem for the country. You are the guy who knows what the 
problems are. I am asking you what they are. Tell me what they 
are.
    Mr. Ginn. Well, I am told by government attorneys that if 
you want to negotiate a contract, you have to assume it is 18 
months. Now, that is going to--in the commercial world, that is 
way beyond what it would ever take.
    Mr. Welch. So in order to----
    Mr. Ginn. Number one.
    Mr. Welch. Go ahead.
    Mr. Ginn. And number two, in an iterative process, if you 
are looking-if you are negotiating with one carrier and you get 
an offer from a second carrier, you can't go back and change 
the document that allows you to negotiate with carrier A, so 
you----
    Mr. Welch. So that is a practical challenge.
    Mr. Ginn. It is a practical challenge.
    Mr. Welch. Right.
    Mr. Ginn. And so it is going to add months and perhaps 
years to the implementation process.
    Mr. Welch. That is helpful to know. That is very helpful to 
know.
    Mr. Ginn. But I am very sensitive because I understand the 
need to be open and transparent and competitive, and I want to 
do that.
    Mr. Welch. So essentially, the big problem you have 
identified so far is the contracting process that takes too 
long and prohibits easy counteroffers.
    Mr. Ginn. Yes. It reduces our flexibility.
    Mr. Welch. OK. Thank you.
    Mr. Walden. The gentleman yields back the balance of his 
time. The Chair now recognizes the gentleman from Louisiana, 
Mr. Scalise, for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. Thanks for having the 
hearing and again for your leadership in getting this done in 
the first place, something that hadn't been done for years and 
years in Congress finally actually getting written into law. 
The tough part of getting the program put in place, getting the 
spectrum, getting the funding has been done but now your task 
is to do the tough part of actually building out the network, 
and so when you look at just how big of an undertaking this is 
going to be, I want to ask you, Mr. Ginn, how do you all go 
forward to make sure that you are able to ensure the solvency 
of this, to oversee that you don't have cost overruns that 
drive it up to a point where it ultimately is not able to be 
built out the way that Congress intended, since you are still 
in some of those early stages? We have seen, unfortunately, bad 
track records of big government projects yet there is the 
ability to get things like this done if it is laid out right in 
the front end. So how are you all approaching that to make sure 
those kind of problems don't happen?
    Mr. Ginn. I think in a very traditional way. You start out 
with a set of milestones, benchmarks, and then you measure 
yourself in performance and cost-wise in achieving those 
benchmarks, and if you get off scale, you deal with it, and so 
that is the way we are going to run FirstNet. We are going to 
run it like a business enterprise, and if people don't perform 
or people miss their budgets, we will deal with it. So I have 
done this before. It is not my first rodeo. So I think we are 
capable of managing the budgets that we put forward to the 
organization.
    Mr. Scalise. It is good to hear, and obviously we are going 
to be watching and working with you along the way to make sure 
that it happens that way because it is important to all of us 
like it is to you that it gets done correctly but it also gets 
done in a fiscally responsible way, the way it was intended.
    I want to talk to you about the timetables for moving 
forward with deployment. I know we have heard a lot about those 
BTOP grants that some states got through stimulus states like 
mine, Louisiana, that didn't get it yet have been moving 
forward on their own with building out an interoperable network 
because we can't wait. Unfortunately, we get a lot more than 
our fair share of hurricanes and other natural disasters and so 
our state has been moving forward building out its 
interoperable network. What would be a timetable that we could 
expect so that we are not hindered? We can't afford to wait 
maybe 5, 6 years from now and in the meantime there are going 
to be other things that we may have to deal with.
    Mr. Ginn. I wish I could be more specific, but I think our 
focus now is BTOP, get these agreed to and constructed and run 
the assessments on their performance and basically after that 
see where we are, and I am sorry I can't at this point go any 
further than that.
    Mr. Scalise. Because I know FCC granted something like 21 
waivers to different states to at least have some waiver 
ability. Our state and others put in waiver requests that were 
rejected, and again, we still have the same needs with our 
first responders and we have been putting up our own money.
    Mr. Ginn. Our objective is to get this done as quickly as 
we possibly can, and so that is the only promise I can make to 
you is we want to get this system implemented as soon as we 
can.
    Mr. Scalise. All right. Thank you.
    Mr. Barnett, if I can ask you, in your Potomac Institute 
paper you talked about the opt-out process, and you said, I 
think your quote was, the opt-out process for states is akin to 
asking someone ``to obtain the broom from the Wicked Witch of 
the West, nearly impossible and fraught with risk.'' Can you 
explain that, kind of expand on what you mean by that?
    Admiral Barnett. Yes, sir. The statute does in fact provide 
an opt-out process for states but the time frames that are 
allowed the governor, after FirstNet determines that the cost 
and what would be done for the state, it is presented to the 
governor. The governor has 90 days to inform them whether they 
are going to opt out or not. They have 180 days to not only 
start but complete an RFP. So at the most, the amount of time 
would be 270 days, which is very difficult for a state to do, 
particularly for those states that may be on a biannual 
legislation process. There would have to be a whole lot of 
planning to happen before that, if they even have a chance, and 
even then, they have to get, in essence, approval from the FCC 
and from the NTIA, so it is a two-step process. So it is a 
pretty difficult process. All that can be obviated by bringing 
the states inside the tent rather than kind of outside and 
making sure that they understand what the needs are so that the 
states don't even to consider opting out.
    Mr. Scalise. All right. Thanks, Mr. Chairman. I yield back 
the balance of my time.
    Mr. Walden. The gentleman yields back the balance of his 
time. The Chair now recognizes, as he should have earlier, the 
gentleman from New Jersey, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to ask Mr. Ginn a question in regard to Hurricane 
Sandy and the lessons from that. My district and many other 
areas of my state were devastated by Superstorm Sandy last 
fall, and given the coastal location of our state and the 
associated emergency weather events, I was just going to ask 
what particular lessons do you think FirstNet could learn from 
New Jersey's BTOP grant, assuming it is allowed to proceed in 
the near future? In other words, what could be done better for 
the public to disseminate information or for first responders 
to communicate with each other, whatever, if you would try to 
respond to that.
    Mr. Ginn. Well, in engineering circles, it is not a secret. 
Typically what happens is, you lose power or towers become 
disabled, and so clearly in those prone areas of hurricanes, 
natural disasters, we are going to have to step up and 
strengthen the standards in those locations particularly, and 
we will do that. There is some--it is being debated at the 
moment but basically putting 150-mile-an-hour standard on new 
towers, and that would get the vast majority of hurricanes that 
are likely to hit New Jersey.
    Mr. Pallone. Well, I have to say just for my own experience 
as I was going around in the aftermath, in the immediate 
aftermath, that many times it was the same locations. In other 
words, we have had--I mean, this was certainly the worst I have 
ever seen but you had Irene, you had nor-easters, and many 
times it was the same location. Go ahead. I am sorry.
    Mr. Ginn. The other thing that happens, you lose backhaul, 
particularly if it is aerial, and so, we are going to look at 
all those standards in those critical locations.
    Mr. Pallone. I appreciate that because it gets frustrating 
after a time whether it is communications or it is power or 
whatever, you have so many people, and of course, now many of 
them are interested in buyouts have just had the same 
experience over and over again, and of course they come back to 
us and say well, you already knew that this was the problem 
area where we were going to have this problem, what are you 
doing about it. So I just want to stress that what you are 
doing is really important in terms of communications. That is 
really the key when these disasters strike and people expect us 
to do something about it and particularly now since they have 
had the experience a few times.
    Thank you very much. I yield back.
    Mr. Walden. The gentleman yields back the balance of his 
time. The Chair would ask unanimous consent to insert in the 
record a letter from Textron Systems Corporation detailing 
issues including their information that is available at 
www.connectingfirstresponders.com. Without objection, so 
ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. And now the Chair will recognize the gentleman 
from Missouri, Mr. Long.
    Mr. Long. Thank you, Mr. Chairman, and I am glad that it is 
Ginn because if the guy across from me hollers ``gin'' that is 
usually not a good thing.
    Have you taken into consideration EMPs, electromagnetic 
pulse attacks on this new system that according to Congressman 
Dingell is going to be a vanguard against everything but I 
think that there is a very real possibility in the world we 
work in today that if a terrorist launched a missile off of the 
U.S. coast from a freighter that could release an EMP, that the 
damage would be immense. Are there any safeguards being built 
into the system?
    Mr. Ginn. Well, the technical group has taken a look at 
these issues, and I don't know. I am totally unfamiliar with 
how it might impact our system, but it is theoretically 
possible, but I don't at this point understand how we would 
deal with it, to be honest with you.
    Mr. Long. OK. Well, I would definitely recommend it because 
that is not only theoretically possible, I think that it is 
probable and one of the easier attacks for people to carry out 
against our country, so I would definitely think that the board 
members would definitely want to take that under advisement, 
and taking into consideration all of Congressman Dingell's 
questions, as Mr. Barton said was going to be built for 
everything, do you think that $7 billion is going to get this 
job done?
    Mr. Ginn. I don't know. I will have a conversation with 
that when we get more equipment pricing, we know what these 
systems are going to cost, the radio access is going to cost, 
what the terminals are going to cost, and the benefits of 
arbitrage deals that we may make with carriers. When I can pull 
all that information together, I think I can give you a 
reasonable estimate.
    Mr. Long. With taking into consideration the EF-5 tornado 
that we had in my district that was half-mile, three-quarter-
mile wide, 6 miles on the ground that went through a town of 
50,000 people, Joplin, Missouri, and the devastation, 
Congressman Dingell was asking you about generators and 
protecting them against natural disasters, and when a seven-
story hospital is completely destroyed to the point that it was 
moved and had to be torn down, their backup generators, they 
were in the back of the building, ended up in the front parking 
lot of the building. So I don't know, but normally when the 
government thinks something will cost $7 billion, it usually 
costs about three times and takes about three times as long to 
do as what they think, but in rural areas with buildings, 
maintaining telecommunications networks is quite extensive. 
Does FirstNet plan to partner with existing rural 
telecommunication providers to build out and maintain the 
public safety broadband network?
    Mr. Ginn. Say that again. I am sorry.
    Mr. Long. Do you plan to partner with existing rural 
telecommunications providers to build out the system?
    Mr. Ginn. Absolutely.
    Mr. Long. You do?
    Mr. Ginn. Where it makes sense, we will.
    Mr. Long. Good.
    Mr. Ginn. We view it as a really good option if we can do 
that.
    Mr. Long. One of the most common criticisms of the 
broadband stimulus is that grants were awarded before work was 
completed to determine the investment was needed and now we 
hear testimony that FirstNet will produce its network build 
plan before it has finished asking states where they need 
additional assets. Shouldn't FirstNet conduct its consultation 
with the state before it decides where and how to build?
    Mr. Ginn. Well, see, I don't quite understand that. We have 
been directed to build an LTE network. We know what we are 
going to build, so the question is, how do we go about doing 
that and what kind of features and functions do we put in 
place.
    Mr. Long. But you can't do that before you talk to the 
states, can you, and find out what their needs are?
    Mr. Ginn. Well, the other assumption that you make is not 
true from my point of view is, we develop concepts, network 
concepts. We have not completed a final design, and we are not 
likely to ever complete a final design because as you learn, 
you update your architecture, and that will happen over time.
    Mr. Long. Let me move on real quick in my last few seconds 
here. What interaction has the National Telecommunications and 
Information Administration, NTIA, or the FCC had with other 
agencies that are not on the FirstNet board but have valuable 
expertise and critical infrastructure and telecommunications, 
and is everyone talking together? So again, what interaction 
have they had with other agencies that are not on the board?
    Mr. Ginn. I met with the chairman of the FCC yesterday, and 
NTIA has been wonderfully supportive of our efforts, given the 
fact that we were just getting started, no employees, no space, 
no anything, and they have been very helpful.
    Mr. Long. OK. Thank you, and I thank all our panelists for 
being here today, and I yield back.
    Mr. Walden. The Chair now recognizes the gentlelady from 
North Carolina, Mrs. Ellmers, for 5 minutes for questions.
    Mrs. Ellmers. Thank you, Mr. Chairman.
    Mr. Ginn, I do want to kind of follow up on my colleague 
from Missouri on the question of partnering with other 
networks. Is this network going to be exclusively used by 
emergency personnel for emergency purposes or will you be 
allowing non-emergency uses currently offered by commercial 
providers to emergency and non-emergency personnel?
    Mr. Ginn. We will be providing, and I think the legislation 
supports communications for first responders for public safety, 
both mission critical and non-mission critical.
    Mrs. Ellmers. So it will be exclusively emergency usage?
    Mr. Ginn. Public safety.
    Mrs. Ellmers. Public safety emergency. OK. Great. Thank 
you. And again, thank you to all the panelists that are here.
    Mr. Ganley, your business model seems to be predicated on 
finding sufficient private equity interest to build out a 
network based on your technology. Have you secured this 
financial backing for such a project, and if not, why do you 
think that is?
    Mr. Ganley. First of all, actually the bulk, in many cases 
all of the funding would be debt, not equity. The reason that 
it can be structured as debt rather than equity is cheaper 
money because of the value of the spectrum. Now, sort of coming 
back to one of the questions you asked earlier, the legislation 
as created does allow for partnering, commercial partnering and 
for commercial use of the spectrum when public safety isn't 
using it, and as it happens, when you build these networks and 
they are large networks, public safety will not use or need all 
of the capacity on all of the cell towers all of the time. In 
fact, that will rarely, if ever, happen where they will need 
all of the capacity on all of the cell towers for a big period 
of time. So dynamically, you can create an arbitrage process 
where carriers and utilities and perhaps new businesses that we 
can't even think of right now but new entrants will come in and 
say we will pay, we will bid dynamically in real time for 
access to that bandwidth and we will do it on a free-market, 
competitive basis and compete with each other and we will name 
the prices that we will pay at any given moment to dynamically 
access that bandwidth. That creates a revenue flow, so they 
could be carriers, they could be, as I say, new entrants. That 
creates a source of revenue from this very valuable spectrum 
that can be used to pay for the accomplishment of the mission 
at the local, state and nationwide basis.
    So I expect that with this model, debt financed in most 
cases for rollouts in different parts of the country that it 
will provide not just the ability to pay for the build-out of 
the network in full and to pay for operations and maintenance 
and refreshing of handsets and equipment but in addition it 
will provide a surplus from several of the parts of the country 
that can go into a FirstNet pool. This is not my place to 
determine but I am just speculating here but it could go into a 
FirstNet pool that can pay for all of the additional 
applications, services and many of the demands that public 
safety are going to look to FirstNet to be able to achieve.
    So the short answer to your question is debt can pay for 
these networks because this spectrum is prime real estate. In 
the context of New York City, it is like a block of land on 
55th and 5th. So let us say public safety needs four stories of 
the building every day. So we are saying build an 80-story 
building, public safety can have their first four stories, and 
if they need 80 stories on any given moment, they can have all 
of them immediately. When they are not using it, they can use 
all of that space to sublet to whoever wants to pay the most 
for it, kind of like those offices where you can rent an office 
for a day or a few hours, people can come in, whoever wants to 
bid the most gets the space. That income then is used to offset 
and pay down the debt so you service your debt first, you pay 
your fees, etc., your refreshing fees for the equipment and 
then you can then fund your nationwide mission also from that 
pool of capital. And the answer to your question, are the 
markets prepared to fund that model? The answer to that is, we 
believe so. We have been working with Wall Street, one of the 
top three banks on Wall Street has partnered with us on this, 
and they believe that the demand is likely to be there to 
ensure that the debt markets will very competitively fund the 
rollout of these types of networks, these LTE networks.
    Mrs. Ellmers. Thank you.
    And Mr. Chairman, if you could indulge me for just a 
moment, I was just going to see if Mr. Ginn had maybe a follow-
up to the answer that Mr. Ganley gave.
    Mr. Walden. I think we can do that. Without objection.
    Mr. Ginn. Yes. What I would say is, this is one method but 
this spectrum is going to be arbitraged one way or the other, 
and the question is, do you follow that process or do you 
follow another process that we negotiate with the carriers for 
the arbitrage or the use of the secondary spectrum.
    Mrs. Ellmers. Great. Thank you so much. I appreciate it. So 
this is one method, not necessarily the one that will be----
    Mr. Ginn. Well, there are a number of ways to do this. That 
is one way.
    Mrs. Ellmers. OK. Thank you so much, and thank you, Mr. 
Chairman, for allowing me to ask that follow-up.
    Mr. Walden. Absolutely. We are here to get answers. We now 
recognize the gentleman from New Jersey, Mr. Lance, for 5 
minutes, and if you don't have any questions on this panel, I 
believe we have exhausted our members and probably the panel, 
so we appreciate your participation. We look forward to 
continuing this dialog. As you know, I believe in doing the 
oversight, and just because we pass a law doesn't mean we are 
done with that law, and your counsel has given us more issues 
to deal with. So thank you very much for your good work for the 
country, and we will work together to build out this 
interoperable public safety broadband network for our first 
responders and for the safety of our citizens. Thank you, you 
are dismissed.
    We will welcome our second panel of witnesses. As our 
panelists make their way to the witness table, I am going to 
turn over the chairmanship to the gentleman from New Jersey, 
Mr. Lance, who obviously represents a state that was very 
adversely affected by Hurricane Sandy, and I thought it 
appropriate for him to chair this segment of our hearing so we 
can all learn more about emergency response.
    Mr. Lance. [Presiding] Good afternoon, and we certainly 
welcome the panel. We have four witnesses, and we will ask our 
first witness, Mr. Turetsky, the Chief of the Public Safety and 
Homeland Security Bureau of the Federal Communications 
Commission for an opening statement, and we welcome you, Mr. 
Turetsky, and you have 5 minutes for an opening statement. 
Thank you.

STATEMENTS OF DAVID TURETSKY, CHIEF, PUBLIC SAFETY AND HOMELAND 
   SECURITY BUREAU, FEDERAL COMMUNICATIONS COMMISSION; DIANE 
 KNIOWSKI, PRESIDENT AND GENERAL MANAGER, WOOD/WOTV/WXSP, LIN 
 MEDIA; CHRISTOPHER GUTTMAN-MCCABE, VICE PRESIDENT, REGULATORY 
   AFFAIRS, CTIA-THE WIRELESS ASSOCIATION; AND TREY FORGETY, 
    DIRECTOR, GOVERNMENT AFFAIRS, NATIONAL EMERGENCY NUMBER 
                          ASSOCIATION

                  STATEMENT OF DAVID TURETSKY

    Mr. Turetsky. Thank you, Congressman, and I should say from 
the outset that I grew up in New Jersey and went to high school 
there, so----
    Mr. Lance. Where did you grow up in New Jersey?
    Mr. Turetsky. I grew up in Paramus, New Jersey.
    Mr. Lance. Bergen County. Lots of good shopping in Paramus.
    Mr. Turetsky. There is.
    Mr. Lance. Thank you very much.
    Mr. Turetsky. Except on Sundays.
    Mr. Lance. Blue laws still exist in Bergen County, yes.
    Mr. Turetsky. Thank you for the opportunity to appear 
before you. Today I will address first the FCC's efforts to 
strengthen the resiliency of our Nation's critical 
communications including emergency 9-1-1; second, modernizing 
our 9-1-1 system through next-generation technology; third, 
enhancing our emergency alert and warning systems; and fourth, 
securing our cyber environment.
    First, a critical test of the reliability of our 
communications networks was the fast-moving and unexpected 
derecho storm in June that severely disrupted service provider 
networks that serve 9-1-1 facilities. Seventeen 9-1-1 call 
centers, also called PSAPs, lost service completely, affecting 
the ability of over 2 million people to reach 9-1-1. Seventy-
seven PSAPs serving more than 3.6 million people lost some 
degree of connectivity including vital 9-1-1 location 
information. The FCC's Public Safety and Homeland Security 
Bureau conducted an extensive inquiry into the causes and 
released a report finding that 9-1-1 communications were 
disrupted largely due to planning and system failures that 
could have been avoided if providers had followed industry best 
practices and guidance. Next week, the Commission will consider 
launching a proceeding seeking public input on recommendations 
from the report including ensuring that service providers 
conduct periodic audits of 9-1-1 circuits and maintain adequate 
backup power at central offices.
    Yet another challenge to our communications networks came 
in October, of course, with Superstorm Sandy. For example, 
about 25 percent of mobile antenna sites in the affected region 
went out of service with higher service losses in New Jersey 
and parts of New York. The 9-1-1 networks, however, fared much 
better than in the derecho. In Sandy's wake, the Commission 
began field hearings exploring communications resiliency and 
related topics. The first was held in early February in New 
York City and in Hoboken, New Jersey, and the second was held 2 
weeks ago in California. The FCC will use the information 
gathered to consider options to ensure greater network 
robustness.
    Second, we are moving forward with Next Generation, or NG, 
9-1-1 technology, as it is called, which will improve the 
reliability and performance of 9-1-1 in future disasters. 
Specifically, NG 9-1-1 will facilitate interoperability and 
improve connections and information for and between 9-1-1 call 
centers. It will not only support traditional 9-1-1 calls but 
also the transmission of text, photos, videos and data so that 
emergency responders can respond more effectively.
    As we consider the path to NG 9-1-1, the Commission has 
been working with stakeholders to achieve the near-term step of 
enabling text messaging to 9-1-1, which might sometimes be the 
only way for a person to get help. The Commission initiated a 
rulemaking in December that builds on a voluntary agreement by 
AT&T, Verizon, Sprint Nextel and T-Mobile along with APCO and 
NENA under which each carrier would provide text to 9-1-1 
service by May of next year to requesting PSAPs.
    Also last month, pursuant to the NG 9-1-1 Advancement Act, 
the Commission submitted to Congress a report with 
recommendations on how to address legal and regulatory barriers 
to the transition. The lead recommendation is for Congress to 
create incentives for states to become early adopters of NG 9-
1-1.
    Third, we are working with FEMA and others to make people 
safer by ensuring that the public can receive emergency alerts 
and warnings over multiple communications technologies. 
Wireless emergency alerts, or WEA, addressed by the WARN Act is 
an example. The public receives geographically targeted alerts 
over mobile devices about imminent threats to life and 
property. We are working with stakeholders on a voluntary basis 
to continue to improve the program. The Emergency Alert System, 
or EAS, also continues to be a critical part of our Nation's 
primary alerting system, and along with our federal partners, 
we are working to modernize and diversify it.
    Finally, we are committed to promoting the cybersecurity of 
our critical communications infrastructure. We work with 
stakeholders in a public-private partnership to develop 
voluntary measures and best practices. We have also developed 
tools to promote mobile cybersecurity like our smartphone 
security checker, which helps consumers protect their mobile 
devices, and our Small Biz Cyber Planning for small businesses.
    I thank you for the opportunity to testify, and I am 
pleased to answer any questions.
    [The prepared statement of Mr. Turetsky follows:]
    [GRAPHIC] [TIFF OMITTED] T0378.048
    
    [GRAPHIC] [TIFF OMITTED] T0378.049
    
    [GRAPHIC] [TIFF OMITTED] T0378.050
    
    [GRAPHIC] [TIFF OMITTED] T0378.051
    
    [GRAPHIC] [TIFF OMITTED] T0378.052
    
    [GRAPHIC] [TIFF OMITTED] T0378.053
    
    [GRAPHIC] [TIFF OMITTED] T0378.054
    
    [GRAPHIC] [TIFF OMITTED] T0378.055
    
    [GRAPHIC] [TIFF OMITTED] T0378.056
    
    [GRAPHIC] [TIFF OMITTED] T0378.057
    
    [GRAPHIC] [TIFF OMITTED] T0378.058
    
    Mr. Lance. Thank you very much, and I am very impressed you 
came within 2 seconds of your time. You had 2 seconds to go, so 
that is a very good job and I am very impressed.
    Our next witness is Diane Kniowski, President and General 
Manager of WOOD, WOTV, WXSP, Lin Media, and we welcome you to 
Washington.

                  STATEMENT OF DIANE KNIOWSKI

    Ms. Kniowski. Good morning, Congressman Lance and 
Congressman Welch. Thank you for the opportunity to speak with 
you today about the valuable, often lifesaving services that 
local radio and television broadcasters provide during 
disasters and other weather emergencies.
    At our core, broadcasters are first and foremost and for 
decades have been the most important source of vital emergency 
information for all Americans. When a tornado rips through 
Missouri or an earthquake shakes California, listeners and 
viewers turn to their local broadcasters for news and 
information. When the power goes out, when phone service and 
the Internet may go down, broadcasters are there and on the 
air.
    I have seen it personally in Michigan. In February 2011, a 
major blizzard dropped 25 inches of snow in a 24-hour period. 
We knew it was coming, so we went into action. Three days prior 
to the storm, we began alerting the public on what areas would 
be hit and what essentials would be needed in the home. We sent 
teams into the field keeping abreast of what was happening. We 
stayed on the air for 3 to 4 days until the roads were cleared 
and we knew there was no loss of life. I still remember the 
many letters we received from viewers thanking us. And stations 
around the country do the same thing.
    For example, during Hurricane Sandy, WABC-TV in New York 
prepared in advance for the storm. They shored up their 
infrastructure, inspecting and securing rooftop and tower 
antennas and testing backup transmission paths. On the radio 
side, the engineering team at Clear Channel's radio stations 
moved backup generators and reserve transmitters into the area. 
They implemented longstanding fuel contracts and gathered 
satellite phones and mobile housing for staff. As the storm 
knocked out other means of communications in many parts of the 
tri-state area for nearly a week, broadcasters were ready for 
the storm's fallout.
    For decades, radio and television broadcasters have been 
the backbone of the Nation's Emergency Alert System, known as 
EAS. EAS is a national public warning network that connects 
public safety authorities to the public through over-the-air 
radio and television stations and cable systems with a simple 
push of a button. In addition to alerting the public of local 
weather emergencies such as tornadoes and flash foods, EAS is 
designed to allow the President to speak to the United states 
within 10 minutes. The EAS system works through a chain 
reaction of alerting that begins at the broadcast radio level. 
For example, WTOP here in D.C. is a primary station that other 
broadcast stations and cable systems monitor for local alerts. 
All EAS participants are required to maintain FCC-certified EAS 
equipment that continuously monitors the signals of at least 
nearby sources for EAS messages. Broadcasters work in 
partnership with state, county, and local emergency managers 
and public safety officials on how best to deploy EAS in each 
state. Although EAS can be triggered by the President and state 
or local authorities under certain conditions, the majority of 
the alerts are originated by local emergency managers and the 
National Weather Service. The EAS is also used for Amber 
Alerts. This was created by broadcasters and local law 
enforcement in Texas in 1996. To date, over 600 abducted 
children have been successfully recovered, and at my station, 
we routinely put these alerts out with much success, and it is 
one of the most gratifying parts of my job as a broadcaster.
    Clearly, EAS participation is an important component of our 
public service, and broadcasters are proud of our pivotal role. 
Although participation in EAS on the local level is technically 
voluntary, virtually every radio and television station in the 
country participates, and we do so enthusiastically. All EAS 
equipment is purchased by broadcasters at their own expense and 
all stations must test their EAS systems on a weekly and 
monthly basis. At my station, we also conduct surprise 
emergency rehearsals four times a year because rehearsals help 
identify problems and issues.
    In November 2011, FEMA and the FCC conducted the first-ever 
nationwide test. The purpose of the test was diagnostic and 
included participation from every radio and television station 
in the United states. The test was successful and served its 
purpose of finding where any technical problems may exist. The 
issues that were discovered are being addressed, which is 
precisely why we fully support testing the EAS on a regular 
basis.
    I am grateful for this opportunity to share my views on 
broadcast emergency communication. I look forward to working 
with you toward our shared goal of keeping the American people 
safe through timely alerts and warnings. Thank you.
    [The prepared statement of Ms. Kniowski follows:]

    [GRAPHIC] [TIFF OMITTED] T0378.059
    
    [GRAPHIC] [TIFF OMITTED] T0378.060
    
    [GRAPHIC] [TIFF OMITTED] T0378.061
    
    [GRAPHIC] [TIFF OMITTED] T0378.062
    
    [GRAPHIC] [TIFF OMITTED] T0378.063
    
    [GRAPHIC] [TIFF OMITTED] T0378.064
    
    [GRAPHIC] [TIFF OMITTED] T0378.065
    
    [GRAPHIC] [TIFF OMITTED] T0378.066
    
    [GRAPHIC] [TIFF OMITTED] T0378.067
    
    [GRAPHIC] [TIFF OMITTED] T0378.068
    
    [GRAPHIC] [TIFF OMITTED] T0378.069
    
    [GRAPHIC] [TIFF OMITTED] T0378.070
    
    [GRAPHIC] [TIFF OMITTED] T0378.071
    
    [GRAPHIC] [TIFF OMITTED] T0378.072
    
    [GRAPHIC] [TIFF OMITTED] T0378.073
    
    Mr. Lance. Thank you very much, and thank you for our 
public service regarding emergencies that occur across the 
country.
    Ms. Kniowski. My pleasure.
    Mr. Lance. Our next witness is Christopher Guttman-McCabe, 
who is the Vice President for Regulatory Affairs at CTIA-The 
Wireless Association. Good afternoon.

            STATEMENT OF CHRISTOPHER GUTTMAN-MCCABE

    Mr. Guttman-McCabe. Good afternoon, and thank you, 
Congressman and members of the subcommittee.
    On behalf of CTIA--The Wireless Association, thank you for 
the opportunity to speak with you today on the subject of 
emergency communications. The wireless industry recognizes its 
role as a link between citizens and public safety officials and 
works hard to ensure that this link is as vibrant and reliable 
as possible.
    Today, my testimony will focus on two areas. First, I want 
to provide the subcommittee with an update on the Wireless 
Emergency Alert Program. This program is a true public-private 
success story. Second, I want to urge you to work with the 
wireless industry and other interested parties to create a 
uniform national baseline for liability protection for text to 
9-1-1 and NG 9-1-1 services.
    The Wireless Emergency Alert Program is an outgrowth of 
this committee's efforts to enact the WARN Act. CTIA supported 
this legislation, which we believe struck a balance by 
augmenting the existing emergency alerting system without 
imposing new prescriptive mandates on the wireless industry. 
This approach was consistent with and built up previous public-
private partnerships that led to the successful creation of 
Wireless Priority Service and the Wireless Amber Alert Program. 
In the period since enactment of the WARN Act, we have moved 
from an advisory committee to an FCC rulemaking, standards 
development, coordination with FEMA and now deployment.
    I am pleased to say that the results of the Wireless 
Emergency Alert Program justify the effort. Just last month, 
the National Weather Service alone sent 100 tornado alerts, 80 
blizzard alerts, 40 flash food warnings and five ice storm 
alerts, and as a father, in a story that warms my own heart, 
last month also saw the first successful recovery of an 
abducted child as a result of a wireless Amber Alert. As 
Minnesota's Public Safety Commissioner observed, wireless 
emergency alerts are another important way to ensure that the 
public receives vital information right away wherever they are.
    The wireless alert program is working as this committee 
envisioned it would. Its utility will only grow as additional 
alert-capable handsets are deployed and the carriers and FEMA 
work towards a more granular alerting capability. With this in 
mind, CTIA urges Congress to resist calls to impose new 
technology or participation mandates that could threaten the 
public-private collaboration that has produced a 21st-century 
complement to the television and radio alerts that we all grew 
up with. Those broadcast and radio alerts remain valuable but 
are inadequate by themselves for today's highly mobile 
citizenry. Wireless alerts fill the gaps by notifying those not 
within the reach of radio or television.
    The second issue we commend to the attention of the 
committee is the need for clear, comprehensive, standardized, 
nationwide limitation of liability protection for all entities 
participating in any aspect of emergency communications 
including text to 9-1-1 and NG 9-1-1 services. The existing 
protections flow from the state-based laws that were originally 
adopted for wireline providers in the 1970s, 1980s and 1990s. 
Those protections were extended to wireless and VoIP providers 
under federal law but they vary by state. Merely extending the 
patchwork of state legislation to 9-1-1 service providers is 
insufficient because states vary significantly in terms of the 
duties of care and the potential liabilities imposed on 9-1-1 
activities. CTIA and others believe it is time for a 
comprehensive effort to establish a nationwide, overarching, 
platform-agnostic federal liability standard for Next 
Generation 9-1-1. A failure to do so could hamper the 
transition to these services.
    There is a general expectation that robust, reliable 9-1-1 
and ultimately NG 9-1-1 services should be available to every 
consumer irrespective of what jurisdiction he or she may be in 
at their time of need. Providers should be covered by a similar 
ubiquitous, reliable, consistent standard for liability 
protection.
    The recent commitment by the four national carriers along 
with APCO and NENA to develop and deploy text to 9-1-1 
capabilities highlights the need for federal engagement. This 
voluntary framework will provide near-term emergency 
communications options for wireless subscribers who rely on SMS 
for everyday communications including individuals who are deaf, 
hard of hearing or speech-impaired.
    In its recent report to Congress, the FCC specifically 
called for extending liability protection to any entity that is 
providing NG 9-1-1 services on a voluntary basis. The industry 
is working hard to bring this capability to consumers. Congress 
can support this effort by ensuring that carriers and others 
involved in the provision of these services are covered by 
appropriate liability protections.
    CTIA and its members look forward to working with the 
committee on these issues and other matters intended to promote 
secure, reliable, emergency communication services.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [The prepared statement of Mr. Guttman-McCabe follows:]

    [GRAPHIC] [TIFF OMITTED] T0378.074
    
    [GRAPHIC] [TIFF OMITTED] T0378.075
    
    [GRAPHIC] [TIFF OMITTED] T0378.076
    
    [GRAPHIC] [TIFF OMITTED] T0378.077
    
    Mr. Lance. Thank you very much for your testimony, very 
timely testimony.
    Our next witness is Trey Forgety, the Director of 
Government Affairs, the National Emergency Number Association. 
Good afternoon.

                   STATEMENT OF TREY FORGETY

    Mr. Forgety. Good afternoon, Representative Lance and also 
Representative Welch and Mr. Vice Chairman Latta.
    I will submit my written testimony for the record, but I 
would like to summarize just a little bit and provide a few 
comments on some of the items brought up by the other 
witnesses.
    NENA is the only professional organization devoted 
exclusively to 9-1-1. It is our wheelhouse. It is our 
everything. And about 10 years ago, we recognized the acute 
need to start planning for a future that wasn't based on 
technologies that were reaching 100 years of age. The telephone 
has been with us for a very long time now, and for the past 45 
years it has been the basis of our public communications system 
for reporting emergencies, 9-1-1.
    But the way the public communicates is changing very 
rapidly. Already, we have seen consumers shed their wirelines 
in droves. Businesses are now following suit. Voice over IP 
adoption rates are off the charts. Consumers are using mobile 
technologies in ways never before thought possible. Voice, 
text, mobile, voice over IP, all of these technologies are 
coming onto the market and they are being adopted quickly by 
consumers.
    Now, the first panel this morning talked quite a bit about 
FirstNet, and FirstNet, I think, is a very important technology 
but neither FirstNet nor 9-1-1 can be looked at by themselves. 
Ultimately, what citizens need is an end-to-end system that 
allows them to report their emergencies to public safety 
officials and receive a response that works, and that can 
happen in our interconnected world only if citizens have the 
ability to push the data that they have--images, videos, 
medical data, location information--only if they can push that 
data directly to the public safety answering points and the 
public safety answering points can push it directly to the 
responders. That is going to take a great deal of coordination 
and it is going to take a great deal of detailed work to make 
sure that we have standards that work across platforms, across 
technologies and so forth.
    I think we have laid a very firm foundation for that. We 
have seen just recently the FCC's CSRIC, Communications, 
Security, Reliability and Interoperability Council, is working 
on and will soon finalize a report on new location technologies 
that will make it easier than ever to locate people who call 9-
1-1, to locate responders who use FirstNet to communicate. We 
have got to remember, in a mobile and interconnected world, 
those are one and the same technologies and both the public and 
first responders should have access to advanced location 
technologies. But getting there is not going to be easy 
ultimately. 9-1-1 has been a success in part because it has 
been so reliable. It has been a great experiment of states and 
localities basically working from the ground up.
    Now, there are things that Congress can do, and I think 
Representative Eshoo put it well earlier as did Chairman 
Walden. There are policy changes that can be made that will 
help to move the ball forward, and I think the important thing 
to remember about that is, there are easy policy changes that 
require little or no new money to get good outcomes at the 
state and local level. One simple thing that Congress can do is 
to level the playing field. Right now, we have about half a 
dozen different federal agencies that supply grant funding for 
public safety, everything from police, fire, EMS and so forth, 
but in nearly all of those instances, 9-1-1 is not included in 
the definition of public safety. Now, it is true, of course, 
that 9-1-1 in many places is part of one of these other 
services but typically those other services want to focus on 
their core issues. If it law enforcement, it is guns and badges 
on the street. If it is fire, it is engines and firefighters. 
We need to level that playing field so that 9-1-1 is mentioned 
specifically in public safety grant programs so that they can 
compete for those federal funds on an equal basis with the 
other public safety professionals.
    And I will close with this. The last piece is cybersecurity 
and network resilience, and those are two fundamentally 
important issues for 9-1-1, and Next Generation 9-1-1 will have 
tremendous benefits in this regard in terms of improving 
reliability, resiliency, redundancy, path diversity. Already we 
have standards work done in the areas of encryption and 
authentication, role-based access models, all of which can be 
leveraged by FirstNet to drive down the cost of implementation 
for both systems, and I think that is a key important point is, 
this ecosystem, if it works right, if it works together, it can 
save the public a lot of money, a lot of lives and a lot of 
property.
    And I thank you for your time, and I welcome your 
questions.
    [The prepared statement of Mr. Forgety follows:]

    [GRAPHIC] [TIFF OMITTED] T0378.078
    
    [GRAPHIC] [TIFF OMITTED] T0378.079
    
    [GRAPHIC] [TIFF OMITTED] T0378.080
    
    [GRAPHIC] [TIFF OMITTED] T0378.081
    
    [GRAPHIC] [TIFF OMITTED] T0378.082
    
    [GRAPHIC] [TIFF OMITTED] T0378.083
    
    [GRAPHIC] [TIFF OMITTED] T0378.084
    
    [GRAPHIC] [TIFF OMITTED] T0378.085
    
    [GRAPHIC] [TIFF OMITTED] T0378.086
    
    [GRAPHIC] [TIFF OMITTED] T0378.087
    
    Mr. Lance. Thank you very much for your testimony.
    I have several questions, and I appreciate all of your 
being here to be with us today.
    Mr. Turetsky, I have a question related to the district I 
serve. One of the counties in the district I serve, Somerset 
County, New Jersey, spent a considerable sum of money in 
attempting to comply with the FCC's narrow banding order, and 
the county successfully moved about half of its communication 
equipment into the T band spectrum before the January 1st 
deadline. Now, due to legislation that Congress passed last 
year that created FirstNet, it is going to have to vacate that 
spectrum in order for the T band to be auctioned and to upgrade 
its equipment yet again. I have recently written the FCC on the 
matter, and I am hoping that you might be able to provide some 
insight into what assistance might be available to Somerset 
County to help it comply with the directives. We have 
significant concerns with how to pay for the necessary 
upgrades, given the fact that the county in good faith tried to 
do what was appropriate at the time, and I would appreciate any 
comments you might have regarding that and I hope to work with 
the FCC on this issue.
    Mr. Turetsky. We look forward to working with you on this, 
Congressman. To my understanding, Somerset County responded to 
the narrow banding requirements just as it should. After it 
began to respond, Congress passed a law, as you mentioned, 
which changed the treatment of spectrum in that band and 
required that it be given up. The FCC promptly issued a blanket 
waiver so that jurisdictions like Somerset County would not 
need to continue to spend money on narrow banding anymore, 
given that they had to give that up.
    We have a notice outstanding where we are seeking comment 
on what the costs are going to be on moving from the T band to 
other bands and all related questions about what band may be a 
suitable place to move. As that comes in, we will continue to 
work with all of the stakeholders including Somerset County on 
these issues. The FCC, of course, doesn't have a budget to pay 
for this. That is not one of the things that Congress has given 
us.
    Mr. Lance. Are there a lot of counties in that situation?
    Mr. Turetsky. There were a number who were midstream, which 
is why we issued a blanket waiver.
    Mr. Lance. Thank you. What impresses me is, no good deed 
goes unpunished, and we want to move forward in an appropriate 
way and we hope that the county can recoup some of its 
financial losses in that regard.
    On a previous panel, to you as well, Mr. Turetsky, we heard 
from interested stakeholders with respect to FirstNet. Your 
bureau is charged with public safety issues, the Commission. We 
have heard that the FCC has informally halted all equipment 
authorizations related to band 14 devices while FirstNet 
determines what its network architecture will look like. Given 
that FirstNet has no authority to determine the emissions 
criteria for FCC equipment authorization, when in your judgment 
will authorizations resume?
    Mr. Turetsky. We issued a Notice of Proposed Rulemaking in 
the last few days that asks questions about those very 
subjects. When the record is complete, we will move 
expeditiously to authorize equipment for that band.
    Mr. Lance. Thank you. Is it possible for you to give us a 
time frame as to when that might be?
    Mr. Turetsky. It just went out for public comment. I don't 
know if it has actually been published in the Federal Register 
but it is public now. It was issued by the FCC. So when the 
comment period closes, we will move as expeditiously as we can.
    Mr. Lance. Is the comment period, is that 45 days or 90 
days?
    Mr. Turetsky. I have to check. It is somewhere in the 45-
day range. I will get back to you on exactly what it is.
    Mr. Lance. Thank you for answering the question.
    Mr. Guttman-McCabe, your industry has agreed to implement a 
text to 9-1-1 capability despite the short messaging service's 
perhaps inadequacy to do the task. What real-world limitations 
will those seeking emergency service face when using SMS to 9-
1-1?
    Mr. Guttman-McCabe. Thank you, Mr. Congressman. I think 
first of all out of the gate, whether it is NENA or the FCC, I 
think the message that would come from the industry or public 
safety officials is at every opportunity if you can dial 9-1-1, 
it is sort of a last resort. The networks weren't designed--the 
SMS networks, the testing networks were not designed to really 
be real time, and for those who have sent a text and it has not 
been delivered in a timely manner, you understand what we are 
talking about. What we are trying to do is put a band-aid here 
until we get to Next Generation 9-1-1, and our four largest 
carriers realized working with NENA and APCO and Mr. Turetsky 
and the Commission that we could do something that could be 
beneficial in the short term.
    But there are a number of hiccups. It involves the delay. 
It is a store-and-forward technology. It is designed in essence 
to move into the network and then get delivered. It doesn't 
have the same location-based service capabilities that a call, 
the wireless 9-1-1 calls were engineered for. So it really is a 
stopgap. It is designed to help some of the communities that 
rely on SMS, the hard of hearing or those with difficulties, 
and it s something we committed to. As I said, we hope that 
Congress will help us and step up with some form of liability 
protection because this is a service that we have committed to 
voluntarily but this is not perfect, and we obviously didn't 
want to let the perfect be the enemy of the good but as we move 
to Next Generation 9-1-1, it would be helpful to have Congress 
help implement some form of liability protection.
    Mr. Lance. Thank you very much for your answer.
    The Chair recognizes Mr. Welch for 5 minutes.
    Mr. Welch. Thank you very much.
    Vermont has been a leader on the enhanced 9-1-1 and it has 
been helpful. Just a couple of stories. One person sent in a 
one-word text ``suicide'' and they were able to figure out what 
the address was, and this person was actually in the process of 
following through, and we are all glad to say was saved. But 
then another one, and this would be a lot more common, I think. 
A women was getting beaten up by a drunk husband, and getting 
on the phone is not an option at that point, but she was able 
to text, and the police responded and took care of the 
situation. So I really applaud you all for that effort.
    Mr. Turetsky, do you want to add anything that you weren't 
able to say in response to questions from Mr. Lance?
    Mr. Turetsky. No, Congressman, I think you have highlighted 
the importance of text to 9-1-1. There are at least three 
circumstances where it is vital, and I agree with Mr. McCabe 
that in general, the right course would be to make a voice 
call. The three circumstances where text to 9-1-1 is essential 
are, one, for the hearing impaired and the speech impaired, and 
number two, where as a matter of safety making a call is 
impossible, and you have given an illustration of that, and 
number three, sometimes in situations of network congestion, a 
text is more likely to go through and actually more reliable 
than a phone call would be.
    The other aspect of this is, it also provides an 
opportunity for the call takers or text takers, as it is, to 
open up multiple texts at one time and prioritize so that they 
can go to the fourth one in the queue and they see that is the 
lifesaving emergency. So we think it is very, very important, 
and Vermont has been a real leader in testing this.
    Mr. Welch. Well, good. Thank you all for your work on this, 
and I yield back, Mr. Chairman.
    Mr. Lance. Thank you very much. We now recognize the vice 
chair of the subcommittee, Mr. Latta from Ohio.
    Mr. Latta. Thank you very much, and thank you very much to 
our panel for being here.
    Mr. Guttman-McCabe, if I could ask, we are talking about 
the fees associated with e-911, and I am particularly 
interested, what is happening with these fees and are they 
going to where they are supposed to be going at all times?
    Mr. Guttman-McCabe. Thank you, Congressman. I guess the 
short answer, and then I will continue after that is, 
unfortunately, no. They are not always going where we hope they 
would. Congress stepped up several years and tasked the FCC 
with putting together a report back to Congress on the status 
of their rating of e-911 funds, and we have worked with NENA 
and APCO in the past and for years to try to really shine a 
light on this, and in the most recent report that came right 
around the end of the year to Congress, seven states had raided 
the funds, and we continue to see that, and we think in an 
environment where there is such reliability on being able to 
connect with public safety through your wireless devices, it 
really does trouble us that there are states that continue to 
raid the funds. I am sure there are legitimate reasons. Some of 
them are as simple as budget shortfalls. But I don't think any 
of them rise to the level of being acceptable when you balance 
it versus the needs of the public safety, the PSAP community.
    Mr. Welch. Let me just follow up. Is there any idea how 
much that is in those states that has been diverted?
    Mr. Forgety. If I could answer, Congressman, I can give you 
one example in particular to just give you an idea of the scope 
and scale of the problem. A few years ago, the state of Arizona 
actually diverted over $50 million from their state 9-1-1 fund 
alone. We saw, I believe in the state of New York, I recently 
saw reports that over $150 million had been diverted over the 
course of some period of time. In some states, 9-1-1 fees are 
statutorily protected. They are not subject to appropriations 
for other purposes. In other states, they aren't protected, and 
in some cases, what may be called a 9-1-1 fee may actually go 
directly to the state's general fund and then be subject to 
primary appropriation from the get-go, so it may never get to 
9-1-1 in the first place.
    Mr. Latta. Well, Mr. Forgety, since you got the mike right 
now, let me ask you a follow-up and another question to you 
then. As your testimony indicates, our Nation's 9-1-1 call 
centers are not considered public safety under the definition 
in federal law. How will that impact your ability to 
participate in FirstNet?
    Mr. Forgety. Congressman, I think that is a key issue for 
9-1-1. As the FirstNet board was initially formulated, there is 
not a distinct 9-1-1 community representative on that board, 
and I think adding a 9-1-1 representative would be an excellent 
move for FirstNet. We have been invited to participate in the 
Public Safety Advisory Committee, although, again, I would 
point out that while there are representatives, I believe it is 
police, fire, sheriff and EMS, to the executive committee, 
there is not a 9-1-1 representative. So I think just making 
certain that 9-1-1 has a seat at the table from the very 
beginning would be very beneficial to make sure that the two 
systems work together the way they should.
    Mr. Latta. OK. Let me follow up with one last question to 
you, if I may. Given the financial situation around the 
country, what is a realistic timeline for the text to 9-1-1 
capabilities to be deployed in the PSAPs?
    Mr. Forgety. That is a very complicated question because 
every state is in a different posture. For example, Mr. Welch's 
state is already way ahead. They have a near-Next Generation 9-
1-1 system already deployed. My home state of Tennessee is 
deploying some baseline capabilities. They will be ready to 
take text probably within a year or so of the carrier 
deployment deadline. Other states are hanging back and probably 
won't be prepared for 2 to 3 years at the very earliest.
    Now, the text proposal that we entered into with Mr. 
Guttman-McCabe's members leaves open an option which is a TTY 
conversion option. That is an old technology primarily used now 
to support the deaf and hard-of-hearing communities' access to 
9-1-1. That technology will make it possible for every PSAP 
today to take text if they are ready, willing and able. Under 
Justice Department regulations promulgated pursuant to the 
Americans with Disabilities Act, every PSAP must have TTY 
capability at every position. So they can do it today if they 
have the training, if they have the experience, circuit 
capacity and so forth. There are all those sorts of issues but 
it is going to be a few years before we have it nationwide.
    Mr. Latta. Thank you.
    And just briefly, Ms. Kniowski, if I may, you mentioned in 
your testimony about a need out there for credentialing for 
folks who are out there in the field. Do any states issue 
credentials right now to reporters or linemen or anything like 
that?
    Ms. Kniowski. Not that I am aware of, but we do request it, 
and one of the reasons is, we have to get to our transmitters, 
we have to get to our towers, we have to have gasoline trucks 
come in and fill our tanks so we can stay on the air and get 
the information to the community in need.
    Mr. Latta. Thank you very much, Mr. Chairman, and I yield 
back.
    Mr. Lance. Thank you, Mr. Latta. The Chair recognizes the 
ranking member, Congresswoman Eshoo of California.
    Ms. Eshoo. Thank you, Mr. Chairman. It is nice to see you 
in the chair.
    Mr. Lance. Thank you.
    Ms. Eshoo. Thank you to the witnesses, and it really is a 
huge thanks because we have been working on the whole issue of 
e-911 for a long, long time now. I was a young woman when I 
started out on this venture, and I just thought that the entire 
Congress would come along because I made the most plausible 
case about what we needed to do, and most frankly, it took some 
time for the issue to mature, and I said many times, it matured 
during one of the great crises in our country when we were 
attacked, and that is when minds started opening up about what 
we could do, what we should do, and how to structure it, so I 
want to thank all of you for the roles that you have played in 
it. They have been significant and they are very important.
    First I think to each one of you. As you know, last year's 
derecho storms severely disrupted 9-1-1-related communications, 
particularly in parts of northern Virginia. Would a NextGen 9-
1-1 environment provide call centers with greater reliability 
and resiliency during a natural disaster? Just very quickly.
    Mr. Turetsky. Yes, it would, Congresswoman. It provides 
many more routes to get calls to a 9-1-1 call center, and it 
reduces the points of failure that would obstruct that.
    Ms. Eshoo. Great. Ms. Kniowski?
    Ms. Kniowski. I am sorry. Could you repeat the question?
    Ms. Eshoo. Sure. I was asking if NextGen 9-1-1 environment 
would provide call centers with greater reliability and 
resiliency during a natural disaster, and I used northern 
Virginia as an example of what happened.
    Ms. Kniowski. Yes, and we are in support of that and 
anything that can help the community and communicate with the 
community and the community communicate back we are in support 
of.
    Mr. Guttman-McCabe. Yes, Congresswoman. That is certainly 
an expectation.
    Ms. Eshoo. Great. Mr. Forgety?
    Mr. Forgety. The answer to your question is yes, it can, 
and at a much lower cost than can be done today.
    Ms. Eshoo. I like that. That sounds very good.
    It is my understanding while I have you, Mr. Forgety, that 
NENA has worked closely with the four largest wireless carriers 
to reach a voluntary agreement to make text to 9-1-1 service 
available. I really applaud this. It is very exciting. It is 
important, very important effort. Do you intend to pursue a 
similar process or an agreement with rural and regional and 
smaller carriers so that these services can be made available 
to all consumers?
    Mr. Forgety. Thank you for the question, Congresswoman, and 
thank you for your leadership as the Chair of the NextGen 9-1-1 
Caucus. It has been very effective and helpful. The answer to 
your question is emphatically yes. NENA has already engaged 
with representatives from small and rural carriers and we will 
be continuing to do that with an eye toward crafting some form 
of agreement that aligns well with the FCC's Notice of Proposed 
Rulemaking but also with the unique needs of that carrier 
community.
    Ms. Eshoo. That is terrific. Thank you very, very much for 
your leadership and what you are doing across the board but 
also on this last issue.
    Now, last month the FCC issued a detailed roadmap to 
Congress on how best to advance and deploy Next Generation 9-1-
1 across our country. One recommendation is to ensure 
appropriate liability protection for entities supporting or 
providing these services. From any one of you, maybe Mr. 
Guttman-McCabe, because you discussed this idea extensively in 
your testimony, do you agree that Congressional action is 
necessary?
    Mr. Guttman-McCabe. We do, Congresswoman.
    Ms. Eshoo. I don't know if this was touched on while I was 
out.
    Mr. Guttman-McCabe. I managed to take an opportunity to 
slide it in there in an earlier answer, but I won't miss an 
opportunity to bring it up again. The original protections came 
about literally in the 1970s, 1980s and 1990s, and they were 
based obviously at that time on the telephone system, and so 
when you look at the state statutes and the Net 9-1-1 Act 
extended at the federal level those protections that existed in 
the states to wireless and VoIP. The problem is, a significant 
number of states either don't have protection or have 
protection that specifically is identified for telephone or 
voice-provided services. I mean, there are a lot of qualifiers, 
a lot of adjectives or descriptive adjectives in the existing 
state-based legislation that causes concern and so whether it 
is the current voluntary text to 9-1-1 effort or the future 
Next Generation 9-1-1, there really is significant desire for 
Congress to step up here and provide the same type of liability 
protection that they have done in the past.
    Ms. Eshoo. Thank you to each one of you for what you are 
doing and for being instructive to us today.
    Thank you, Mr. Chairman. Yield back.
    Mr. Lance. Thank you very much, Congresswoman, and our 
thanks to the entire panel for your expertise, very cogent 
answers and the hearing now stands adjourned. Thank you.
    [Whereupon, at 1:09 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T0378.088
    
    [GRAPHIC] [TIFF OMITTED] T0378.089
    
    [GRAPHIC] [TIFF OMITTED] T0378.090
    
    [GRAPHIC] [TIFF OMITTED] T0378.091
    
    [GRAPHIC] [TIFF OMITTED] T0378.092
    
    [GRAPHIC] [TIFF OMITTED] T0378.093
    
    [GRAPHIC] [TIFF OMITTED] T0378.094
    
    [GRAPHIC] [TIFF OMITTED] T0378.095
    
    [GRAPHIC] [TIFF OMITTED] T0378.164
    
    [GRAPHIC] [TIFF OMITTED] T0378.165
    
    [GRAPHIC] [TIFF OMITTED] T0378.166
    
    [GRAPHIC] [TIFF OMITTED] T0378.167
    
    [GRAPHIC] [TIFF OMITTED] T0378.168
    
    [GRAPHIC] [TIFF OMITTED] T0378.169
    
    [GRAPHIC] [TIFF OMITTED] T0378.170
    
    [GRAPHIC] [TIFF OMITTED] T0378.171
    
    [GRAPHIC] [TIFF OMITTED] T0378.172
    
    [GRAPHIC] [TIFF OMITTED] T0378.173
    
    [GRAPHIC] [TIFF OMITTED] T0378.174
    
    [GRAPHIC] [TIFF OMITTED] T0378.175
    
    [GRAPHIC] [TIFF OMITTED] T0378.176
    
    [GRAPHIC] [TIFF OMITTED] T0378.177
    
    [GRAPHIC] [TIFF OMITTED] T0378.178
    
    [GRAPHIC] [TIFF OMITTED] T0378.179
    
    [GRAPHIC] [TIFF OMITTED] T0378.180
    
    [GRAPHIC] [TIFF OMITTED] T0378.181
    
    [GRAPHIC] [TIFF OMITTED] T0378.182
    
    [GRAPHIC] [TIFF OMITTED] T0378.183
    
    [GRAPHIC] [TIFF OMITTED] T0378.184
    
    [GRAPHIC] [TIFF OMITTED] T0378.185
    
    [GRAPHIC] [TIFF OMITTED] T0378.186
    
    [GRAPHIC] [TIFF OMITTED] T0378.187
    
    [GRAPHIC] [TIFF OMITTED] T0378.188
    
    [GRAPHIC] [TIFF OMITTED] T0378.189
    
    [GRAPHIC] [TIFF OMITTED] T0378.190
    
    [GRAPHIC] [TIFF OMITTED] T0378.191
    
    [GRAPHIC] [TIFF OMITTED] T0378.192
    
    [GRAPHIC] [TIFF OMITTED] T0378.193
    

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
